<html>
<title> - ISRAEL, THE PALESTINIANS, AND THE UNITED NATIONS: CHALLENGES FOR THE NEW ADMINISTRATION</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]







                ISRAEL, THE PALESTINIANS, AND THE UNITED
                      NATIONS: CHALLENGES FOR THE
                           NEW ADMINISTRATION

=======================================================================

                             JOINT HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                AND THE

                 SUBCOMMITTEE ON AFRICA, GLOBAL HEALTH,
                        GLOBAL HUMAN RIGHTS, AND
                      INTERNATIONAL ORGANIZATIONS

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            FEBRUARY 2, 2017

                               __________

                           Serial No. 115-19

                               __________

        Printed for the use of the Committee on Foreign Affairs


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





Available via the World Wide Web: http://www.foreignaffairs.house.gov/ 
                                  or 
                       http://www.gpo.gov/fdsys/
                                 ______
                                 
                        U.S. GOVERNMENT PUBLISHING OFFICE 

23-886PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
      

















                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina          AMI BERA, California
MO BROOKS, Alabama                   LOIS FRANKEL, Florida
PAUL COOK, California                TULSI GABBARD, Hawaii
SCOTT PERRY, Pennsylvania            JOAQUIN CASTRO, Texas
RON DeSANTIS, Florida                ROBIN L. KELLY, Illinois
MARK MEADOWS, North Carolina         BRENDAN F. BOYLE, Pennsylvania
TED S. YOHO, Florida                 DINA TITUS, Nevada
ADAM KINZINGER, Illinois             NORMA J. TORRES, California
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
F. JAMES SENSENBRENNER, Jr.,         ADRIANO ESPAILLAT, New York
    Wisconsin                        TED LIEU, California
ANN WAGNER, Missouri
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
PAUL COOK, California                BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             TULSI GABBARD, Hawaii
LEE M. ZELDIN, New York              BRADLEY SCOTT SCHNEIDER, Illinois
DANIEL M. DONOVAN, Jr., New York     THOMAS R. SUOZZI, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
BRIAN K. FITZPATRICK, Pennsylvania

                                 ------                                

    Subcommittee on Africa, Global Health, Global Human Rights, and 
                      International Organizations

               CHRISTOPHER H. SMITH, New Jersey, Chairman
MARK MEADOWS, North Carolina         KAREN BASS, California
DANIEL M. DONOVAN, Jr., New York     AMI BERA, California
F. JAMES SENSENBRENNER, Jr.,         JOAQUIN CASTRO, Texas
    Wisconsin                        THOMAS R. SUOZZI, New York
THOMAS A. GARRETT, Jr., Virginia





















                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Hillel Neuer, executive director, UN Watch...................    12
The Honorable Brian Hook, founder, Latitude, LLC.................    29
Jonathan Schanzer, Ph.D., vice president for research, Foundation 
  for Defense of Democracies.....................................    34
The Honorable Robert Wexler, president, S. Daniel Abraham Center 
  for Middle East Peace..........................................    47

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Hillel Neuer: Prepared statement.............................    14
The Honorable Brian Hook: Prepared statement.....................    31
Jonathan Schanzer, Ph.D.: Prepared statement.....................    36
The Honorable Robert Wexler: Prepared statement..................    49

                                APPENDIX

Hearing notice...................................................    84
Hearing minutes..................................................    85
The Honorable Gerald E. Connolly, a Representative in Congress 
  from the Commonwealth of Virginia: Prepared statement..........    86
The Honorable Christopher H. Smith, a Representative in Congress 
  from the State of New Jersey, and chairman, Subcommittee on 
  Africa, Global Health, Global Human Rights, and International 
  Organizations:
  Statement by Mr. Hugh Dugan....................................    88
  Statement by Deborah Singer Soffen, MD FAAP....................    96
  Helsinki Commission hearing statement by His Excellency Natan 
    Sharansky....................................................   100
Mr. Hillel Neuer: UN Watch report................................   105
Questions for the record submitted to witnesses by the Honorable 
  Tulsi Gabbard, a Representative in Congress from the State of 
  Hawaii.........................................................   113

 
                   ISRAEL, THE PALESTINIANS, AND THE
                     UNITED NATIONS: CHALLENGES FOR
                         THE NEW ADMINISTRATION

                              ----------                              


                       THURSDAY, FEBRUARY 2, 2017

                     House of Representatives,    

          Subcommittee on the Middle East and North Africa and

                 Subcommittee on Africa, Global Health,

         Global Human Rights, and International Organizations,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The subcommittees met, pursuant to notice, at 10:00 a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the Subcommittee on the Middle East and 
North Africa) presiding.
    Ms. Ros-Lehtinen. This joint subcommittee will come to 
order.
    Members may be coming in and out due to a Judiciary 
Committee markup.
    I would like to begin by welcoming our subcommittee members 
to this first session of the 115th Congress. Welcome to each 
and every one of you. I know that Ranking Member Deutch and I 
are looking forward to continuing the bipartisan work of the 
last Congress to further advance our foreign policy objectives 
in the Middle East and North Africa and to carry out our 
important oversight rule.
    We are eager to get back to work and pleased to welcome 
back our returning members and we are excited to work closely 
with our new members.
    After recognizing myself, Chairman Smith, Ranking Member 
Deutch, and Ranking Member Bass for 5 minutes each for our 
opening statements, I will then recognize other members seeking 
recognition for 1 minute.
    We will then hear from our witnesses. Thank you for being 
here. Without objection, the witnesses' prepared statements 
will be made a part of the record and members may have 5 days 
to insert statements and questions for the record, subject to 
the length limitation in the rules.
    The Chair now recognizes herself for 5 minutes.
    Two months ago, the U.N. Security Council passed Resolution 
2334 by a vote of 14 to zero with the United States abstaining. 
It was a departure in policy by the Obama administration and it 
was a move that was opposed by many of us in Congress. Some 
argue incorrectly that Resolution 2334 has no real practical 
impact; but those who make this argument fail to see 2334 as 
part of a larger agenda--one piece of a larger plan by the 
Palestinians to undermine, isolate, and delegitimize Israel. 
The real practical impact of 2334 is that it leaves the 
possibility of peace even more remote. But that is by design: 
Abu Mazen and the current Palestinian Authority leadership have 
abandoned any pretense that they are interested in making peace 
with Israel.
    Instead, for years, they have been orchestrating a push at 
the United Nations to achieve unilateral statehood outside of 
direct negotiations with the Jewish state. And last year, this 
push reached new heights.
    UNESCO's Executive Board and the World Heritage Committee 
both passed similar resolutions rewriting history and 
distancing Jewish and Christian ties to Jerusalem. The Human 
Rights Council (UNHRC) approved a blacklist that can be used by 
those who support the Boycott, Divestment, and Sanctions (BDS) 
movement to further undermine Israel and these efforts 
culminated with the passage of Resolution 2334.
    After years of failed attempts at peace and years of false 
moral equivalence between Israelis and the Palestinians, we 
have an opportunity to reassess our relationship and our 
objectives. The push at the U.N. by the Palestinians has 
created an atmosphere of complete mistrust for the Israelis, 
almost to the point of no return. We now have an opportunity to 
grow and strengthen our alliance with Israel and show the world 
that we support our friends, we don't leave them out to dry.
    At the same time, we cannot continue to pursue a failed 
policy with the Palestinian Authority. We must reconsider our 
current assistance programs for the PA and our relationship 
with Abu Mazen. It is past time for the United States to hold 
Abu Mazen and the Palestinian leadership accountable for its 
actions at the U.N., for its incitement of violence, and for 
its unwillingness to curb the violence and work with Israel to 
achieve a lasting peace.
    Continuing to provide assistance to the Palestinian 
Authority has proven that it does nothing to further the 
prospects for peace, as long as Abu Mazen has no interest in 
working with the Israelis. We must also take a long hard look 
at what our role at the United Nations is. This is why I intend 
on reintroducing legislation that would address the need for 
reforms at the United Nations because it is clear that 
engagement with the U.N. over the past several years has only 
served to legitimize its anti-Israel agenda. This is common 
sense legislation that is intended on forcing some of the much 
needed reforms to get the U.N. and its specialized agencies 
back to doing what they were mandated to do.
    I think many of us could agree that it makes sense to have 
a uniform definition of refugee, and that all refugees should 
be under the auspices of a single agency. We could all be in 
agreement that the body meant to promote and defend human 
rights worldwide should not be controlled by nations that have 
some of the worst human rights records. And it makes sense that 
the body tasked with ensuring the protection of cultural and 
historic heritage should not be used as a political tool to 
deny or erase the cultural and historic ties of a people to 
their homeland.
    Too many countries see the United Nations for what it is 
supposed to be--not for what it truly is--unwilling to come to 
the hard realization that we need to take a drastic new 
approach if we are to salvage the mission of the United 
Nations. It has become a politicized tool used more to block 
action or maintain the status quo and it has become the place 
where the world's dictators come together to demonize Israel 
because it is so easy to do.
    I have known the new Secretary-General for quite some time 
now and I know that he would agree that we can and must do 
better. I hope to work with him in the future as we tackle this 
difficult but necessary task and I hope that the Trump 
administration will work to bring reform to the U.N. so that it 
can work as it was intended to do.
    And with that, I am pleased to yield to my good friend, the 
ranking member, Mr. Deutch.
    Mr. Deutch. Thank you, Madam Chairman, Chairman Smith. 
Thank you for calling today's meeting. I am pleased to join 
Ranking Member Bass in welcoming the new members of our 
subcommittees to the first hearing of this new Congress. I look 
forward to continuing to work with the chairman to advance our 
shared foreign policy priorities and would be happy to revisit 
her comments from last Congress, in which she refers to me as 
her co-chairman.
    Today, we have the opportunity to look at the challenges 
for the new administration in advancing the interest of the 
United States and our allies in the United Nations, while 
continuing to advance the prospects for a two-state solution 
for Israel and the Palestinians. I am pleased to welcome our 
witnesses to what will, no doubt, be a spirited and thought-
provoking discussion.
    Like many of my colleagues, I have long spoken out in no 
uncertain terms against the pervasive anti-Israel bias of the 
United Nations. In 2015, I was invited to speak at the U.N. 
General Assembly special session on anti-Semitism, where I 
raised the very issue of the anti-Israel nature of the U.N. 
bodies. It is simply fact that no other country has been 
subject to as many country-specific resolutions at the United 
Nations as Israel. It is simply fact that there are states who 
seek to use the United Nations to delegitimize Israel's very 
right to exist. And at every opportunity, the United States, as 
Israel's friend and ally, must push back against those efforts.
    The U.N. Security Council has proven it is not the forum 
for a balanced discussion on issues pertaining to Israel. 
Efforts to use the United Nations to bypass direct negotiations 
between Israel and the Palestinians must be rejected and this 
Congress must affirm regularly that direct negotiations between 
the parties themselves is the only path to two states for two 
peoples living side-by-side in peace and security.
    Last year, the four chairs and ranking members of these 
subcommittees joined our colleagues Kay Granger and Nita Lowey 
in authoring a letter signed by 394 Members of Congress that 
reaffirm that very principle. In that letter, we also expressed 
concern that one-sided initiatives may arise at the U.N. and 
that such initiatives would hinder the prospects for peace. I 
was among the Members of Congress that was troubled by the U.S. 
decision to allow U.N. Security Council Resolution 2334 to pass 
in December. Many of my colleagues shared the belief that the 
Security Council was the wrong venue for this resolution. 
Dozens of clauses on Israel settlement activity, followed by 
one vague reference to all sides condemning violence didn't 
make it balanced. Moreover, even for those who believe it is 
necessary to make a statement on settlement activity, the 
resolution did not even distinguish between Jewish prayer at 
the Western Wall and illegal outposts.
    I am concerned about the prospects for a two-state 
solution. I am also concerned that Palestinian incitement and 
terror attacks and rockets aimed at Israel civilians harm these 
prospects, but I didn't see that in the resolution. But I want 
to be clear. U.S. disengagement from the United Nations does 
nothing to help our friend and ally Israel. It does nothing to 
bring Israel and the Palestinians closer to negotiations and 
disengagement at the United Nations will almost certainly lead 
to the passage of resolutions that are significantly harmful to 
Israel's interests.
    I agree with my colleagues that the U.N. system needs real 
reform and I look forward to having a discussion today on how 
we can alter the current assessment rate for our dues, or 
remove the outrageous standing agenda item on Israel from the 
U.N. Human Rights Council's agenda, or create criteria for 
membership standards on the council so that the world's worst 
human rights abusers don't have a seat at the table. But I also 
know that cutting off funding or full disengagement from the 
U.N. will significantly harm the interests of this country and 
our allies. The U.N. is instrumental in preventing disease 
pandemics, maternal and child health, refugee issues and I know 
that Ranking Member Bass will speak in more detail about the 
benefits of U.N. engagement.
    I would like to simply point out that despite the way it is 
treated in the U.N. system, Israel does not disengage from it. 
In fact, it is the opposite. Israel works harder to strengthen 
its diplomatic relations. Israel is seeking a seat on the 
Security Council in 2019. Israel was granted unprecedented 
membership in the Western European and Others Group. In a 
first, Israel was elected to chair the U.N. Legal Committee 
last year. Israel has no greater advocate at the U.N. than the 
United States. It is when we do not have a seat at the table, 
it is when we are not paying our dues, that we lose our ability 
to help our ally. Despite my deep disdain for the way the Human 
Rights Council is run, in the years from 2006 to 2009 that the 
United States was not on the council, there were six special 
sessions on Israel. Since 2009, with our engagement, there has 
been one.
    Madam Chairman, if we want to see Israel thrive as the 
vibrant innovative democracy it is, we will stand up for it at 
the United Nations. We will be the ones to make the world see 
Israel for what it really is, a country that values equality 
and education, a world leader in tech and biomedical research 
and agriculture, and provides life-saving humanitarian aid all 
as a thriving democracy. If we want to foster an environment 
for a return to direct negotiations in hopes of reaching a two-
state solution, we will be there at the U.N. to ensure that it 
is not used as a venue to bypass negotiations and we will help 
engage other member states to understand why supporting 
boycotts against Israel does nothing to advance peace.
    As we look to the challenges facing this new 
administration, we have got to consider what actions and what 
policies strengthen Israel's security and bring Israel and the 
Palestinians closer to direct negotiations that will lead to 
two states. One thing is certain. Should the Palestinians 
choose to pursue the reckless action of bypassing direct 
negotiations through U.N. action, the United States must be 
engaged and involved and at the table to prevent it.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Deutch, my co-
chair.
    And I now I would like to yield, for his opening statement, 
to Chairman Smith, a chairman of the Subcommittee on Africa, 
Global Health, Global Human Rights, and International 
Organizations.
    Mr. Smith. Thank you very much, Chairman Ros-Lehtinen. I 
want to thank you for your leadership and for inviting my 
subcommittee to join yours. I think it adds additional focus 
and hopefully firepower to this extremely important hearing.
    Madam Chair, the United Nations is an organization, as we 
all know, founded on the loftiest of principles out of the 
ashes of World War II. Indeed, if we look at the context of the 
founding of the U.N. and the great document that is the 
Universal Declaration of Human Rights of 1948, which sets forth 
its animating aspirational principles, we understand how the 
world came together to say never again. Never again would a 
people be subject to genocide. Never again would military 
aggression destroy the peace of smaller nations. Rather, a 
forum would be created for these nations, big and small, old 
and new, to come together to settle their difference in a 
peaceful way. Yet despite these lofty principles, the State of 
Israel finds itself in the crosshairs of a delegitimization 
campaign mounted by a growing number of nations in the United 
Nations and especially in U.N. institutions.
    Back in 2004 I chaired and I have chaired more than 20 
hearings on combating anti-Semitism, twice, Natan Sharansky 
testified at those hearings and he pointed out, and it bears 
quoting, that ``[C]lassical anti-Semitism is aimed at the 
Jewish people or the Jewish religion, `new anti-Semitism' is 
aimed at the Jewish State. Since this anti-Semitism can hide 
behind the veneer of legitimate criticism of Israel, it is more 
difficult to expose.'' He pointed out: ``Making the task even 
harder is that this hatred is advanced in the name of values 
most of us would consider unimpeachable, such as human 
rights.'' He calls it the three Ds: Demonization, double 
standards, and the idea of delegitimization.
    And without objection, I would like his full statement at 
that hearing included in the record.
    Ms. Ros-Lehtinen. Without objection.
    Mr. Smith. Today, this offensive against Israel is 
unparalleled in its intensity and absurdity on the 
international stage. No other nation on earth faces such a 
concerted effort to rewrite its history, erase millenia 
cultural heritage, and violate its sovereignty.
    Indeed, among the foundational documents of the U.N. is the 
Charter which, at its very beginning, sets forth in the basis 
of the U.N. the idea of sovereign equality of all of its 
members, yet this principle is violated when the U.N. singles 
out and punishes Israel absolutely disproportionately to all 
other nations on earth.
    U.S. policy has long maintained that direct bilateral 
negotiations are the only path to peace in the Arab-Israeli 
conflict. When we consider that this is our Government's 
official policy, we are forced to recognize the U.N. as its 
primary opponent. Because of the reckless agenda of the 
Palestinian Authority and the misguided policies of global 
elites in New York and Geneva, the U.N. increasingly serves as 
a platform for efforts to circumvent negotiations, impose 
conditions, and isolate Israel.
    Palestinian officials manipulate U.N. institutions to 
create a parallel reality in which Palestine is a recognized 
state. The Green Line is the international border and Jewish 
and Christian heritage in the Holy Land does not exist.
    The Palestinian Authority has proven to be more interested 
in scoring symbolic victories at the U.N., whether through 
having its flag in front of the U.N. headquarters or getting 
full UNESCO membership than in putting the hard work to achieve 
true statehood with its Israeli negotiation partner.
    It is clear from many U.N. decisions that a growing number 
of states and institutions prefer to construct an alternative 
universe, rather than build sustainable peace. In one 
especially unconscionable example, UNESCO, in October, voted to 
approve two resolutions that erased every single reference to 
Judaism and Christianity from the ancient holy sites of 
Jerusalem's Old City. And as we are all aware, the U.N. 
Security Council passed Resolution 2334, papering over decades 
of agreements concerning the 1949 Armistice Line and 
essentially the clearing of Israel's established border with 
the Palestinian territories.
    The ever-growing list of anti-Israel resolutions, reports, 
and screeds at the U.N. are not only wrong and 
counterproductive, they are also absurd in a world of 
oppressive dictators, international menaces, and systemic human 
rights abuses. The U.N. institutions repeatedly cast Israel, 
the Middle East's only liberal democracy, as a pariah state.
    The U.N. General Assembly in September issued 20 anti-
Israel resolutions, more than the total number of resolutions 
on Syria, Iran, and North Korea combined. Equally astonishing, 
the General Assembly did not pass a single resolution 
addressing human rights abuses in China. And I chaired the 
Congressional-Executive Commission on China and I can tell you, 
we put out our report last year, Xi Jinping, the dictator in 
China, is in a race to the bottom with North Korea and nary a 
word, not a word against China for its egregious violations of 
human rights. The same goes for Turkey, Saudi Arabia, and 
Venezuela. Again, where is the General Assembly when it comes 
to those nations?
    Clearly the U.N. is an institution that is in need of 
reform and now. This subcommittee, in conjunction with our good 
friend, Ileana Ros-Lehtinen, in the last Congress held hearings 
on corruption at the World Intellectual Property Organization, 
where its director-general retaliated against whistleblowers 
who uncovered illicit transactions with the rogue states of 
North Korea and Iran. We have also examined, and I have had 
five hearings on this, the U.N. peacekeepers being part of 
trafficking and raping little girls. They talk about zero 
tolerance and at one of the hearings we called it zero 
compliance with the order telling them to cease and desist such 
egregious behavior.
    Sadly, we even have indications that the FAO has sought to 
silence truth-tellers within that organization, while offering 
a plush diplomatic post to shield a former First Lady who is 
under investigation in her own country for receiving bribes and 
corruption in a corruption scandal that touched certain Latin 
American countries.
    And UNRWA, both Ileana Ros-Lehtinen and I have held 
hearings about how UNRWA systematically promotes anti-Semitism. 
We are the leading donor to the U.N. Relief and Works Agency 
for Palestinian Refugees. I am glad we are but the textbooks 
and all of the other anti-Semitic activity that occurs there 
has to stop; $359 million is just far too much without getting 
a commensurate tolerance policy out of that organization.
    Again, thank you Madam Chair and I look forward to our 
testimony.
    Ms. Ros-Lehtinen. Thank you very much. Thank you, Mr. 
Smith.
    I am so pleased to recognize the ranking member of the 
Subcommittee on Africa, Global Health, Global Human Rights, and 
International Organizations, Karen Bass of California.
    Ms. Bass. Well let me thank our Chairs Ros-Lehtinen and 
Smith and also our Ranking Member Deutch of the Middle East and 
North Africa Subcommittee for this extremely important hearing.
    I would also like to welcome the witnesses for joining us 
this morning and note that I look forward to hearing each of 
their testimonies regarding these important issues that touch 
on not only the role of the U.N. and the importance of the U.S. 
continuing its leadership role but also issues of import to the 
Africa, Global Health, Global Human Rights, and International 
Organizations Subcommittee.
    The role of the U.S. at the U.N. is a critical leadership 
role, just as the role of the U.S. on the global stage, it is 
one based on a strong legacy of leadership. In a world that has 
had increasingly to deal with non-state actors, terrorism and 
asymmetrical warfare, the role of the U.N. is even more 
important. For example, the U.N. currently provides food to 
some 80 million people in 80 countries throughout the world. 
The United Nations vaccinates 40 percent of the world's 
children. The U.N. assists over 65 million refugees and people 
fleeing war, famine, or persecution. The United Nations keeps 
peace through 120,000 peacekeepers, the largest deployed 
military in the world. And the U.N. promotes maternal health, 
saving lives of 30 million women. And throughout this process, 
the role of the U.S. is invaluable.
    Are there issues of reform that must and should continue to 
take place? The answer is yes and our voice, the voice of the 
U.S., has been foremost in this regard. One shining example of 
such reform can be found at one of the most important U.N. 
agencies, the United Nations High Commission on Refugees is 
currently facing one of the largest human displacement crises 
on record. Primarily, the agency promotes lifesaving assistance 
and protection, including shelter, food, clean water, 
education, and medical care to nearly 47 million worldwide who 
have been forced to flee their homes. UNHCR also works to 
prevent gender-based violence and works to build self-
sufficiency in the refugee and displaced persons' population by 
way of capacity training and helps these populations rebuild 
their lives with the goal of enabling them to resettle.
    In 2006, under the able leadership of the then U.N. 
Commission of Refugees, Antonio Guterres, the former Prime 
Minister of Portugal, UNHCR addressed hard questions regarding 
its cost and its efficiencies. Many of these questions were 
posed by the U.S. reports state that at the outset of the 
reform process, the total volume of UNHCR's activities was in, 
U.S. currency, $1.1 billion and by the end of 2015, total 
savings was effectively tripled reaching $3.3 billion, thanks 
to cost-saving reforms.
    The reforms implemented by then U.N. High Commission for 
Refugees enabled the agency to reduce considerably costs 
pertaining to its headquarters and staff by partnering with 
non-governmental organizations. Also by reducing staff, UNHCR 
was able to expand its operations in the field, improve 
delivery and respond more effectively to unprecedented demands 
for its assistance worldwide, including Syria, Iraq, Yemen, 
South Sudan, Ukraine, Central African Republic, and several 
other countries.
    Antonio Guterres is now the Secretary-General of the U.N. 
and a proven leader regarding reform. The new Secretary-General 
expressed his commitment to working with the administration and 
Congress to ensure continued engagement by the U.S. Despite 
this, there remain many in Congress seeking to withhold our 
U.N. assessment, our extracting U.S. from the international 
body altogether, which would devastate many priorities.
    Defunding the U.N. could have significant implications for 
the safety of Americans and U.S. interests worldwide. I would 
like to hear from the witnesses on these implications and, for 
example, what this means regarding U.S.-led multilateral 
sanctions against terrorists and what the impact would be for 
Israel if the U.S. were to reduce its participation or to leave 
the U.N.
    Let me close by noting that the U.S. has an ongoing 
leadership role to play at the U.N. We have the proverbial seat 
at the table as a permanent member of the U.N. Security 
Council. The United Nations is better because of our presence, 
our participation, and our leadership. Friends of the U.S. on 
every continent know that they can count on this country's role 
in the U.N. Do we always agree with our friends? No. Do our 
friends always agree with us? No. But the fact that the United 
States participates actively and calls robustly for reform is 
pertinent. It is a clarion call that must continue and a role 
we must play and continue to encourage other U.N. members to 
address. It would be unwise and, frankly, dangerous to consider 
doing otherwise.
    Thank you.
    Ms. Ros-Lehtinen. Thank you very much, Ms. Bass. Now we 
will turn to our members for their opening statements. This is 
the list that I have. If anyone would like to be added, please 
let us know. Mr. DeSantis, followed by Cicilline, Kinzinger, 
Zeldin, Wagner, and Chabot.
    Mr. DeSantis of Florida.
    Mr. DeSantis. Thank you.
    The U.N. has really become a forum for anti-Israel activism 
and ganging up, in effect, on the world's only Jewish State. 
Now, we did a resolution here in Congress to disapprove of the 
deplorable U.N. Resolution 2334, but that didn't really do 
anything. There was no teeth to the resolution. So I do think 
we need to respond herein the Congress by removing funding for 
the U.N., unless and until they get right with this and repeal 
the resolution.
    I have a lot of problems with how U.N. has treated Israel 
but we also need to work with our allies and let our allies 
know that joining these anti-Israel efforts in the U.N. or 
other international organizations, that is just going to harm 
their relationship with us here in the United States and so we 
need some of our close allies to get better on this issue. I 
think this rewarded Palestinian-Arab bad behavior we, in the 
Congress, absolutely need to look at removing funding going 
over to the Palestinian Authority, given that it frees up money 
for them, even to this day, pay pensions for the families of 
suicide bombers and terrorists.
    I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. DeSantis.
    Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chairman, Chairman Smith, 
and Ranking Members Deutch and Bass for calling this hearing 
today.
    There is no question that the United Nations has 
continually placed an unfair and biased lens on Israel. I 
believe the U.S. has been a vital stabilizing force at the 
various bodies of the U.N., including the Security Council, the 
General Assembly, and the Human Rights Council. The U.S. role 
in each of those bodies is critical.
    The U.N. is an imperfect body made up of imperfect nation 
state members, governed by imperfect people but I implore my 
colleagues to remember why the U.N. was created. Born out of 
the ashes of the greatest conflict this world has ever known, 
the U.N. is designed to temper tensions and provide an avenue 
for conflict resolution among many other things. To threaten to 
pull out or severely limit U.S. participation in the U.N., as 
President Trump has suggested, is extremely reckless. A 
thoughtful discussion on ways to improve the U.N. and make U.S. 
participation even more impactful would be very welcome, but a 
knee-jerk reaction that takes us out of the game entirely would 
be extremely harmful to U.S. national interests and to American 
leadership in the world.
    I look forward to hearing the testimony of our witnesses 
and welcome you to today's hearing. And with that, I yield 
back.
    Ms. Ros-Lehtinen. Thank you Mr. Cicilline.
    Mr. Kinzinger.
    Mr. Kinzinger. Thank you, Madam Chair and it is good to be 
back on your committee.
    We all know how dismayed we were at the abstention. I think 
that is not going to happen again in this new administration.
    But I support the U.N. I think for instance I have seen 
their actions in Liberia. That is a mission that you would not 
see U.S. troops doing and it is a very good force multiplier. 
And I agree with my friends on the other side of the aisle. We 
can't leave. We need a seat at the table but I think it is time 
that the table gets turned over a little bit.
    You know Russians are bombing U.N. aid convoys. You have a 
genocide in Syria with 50,000 dead children and a butcher, 
Assad, existing. And this is the type of stuff the U.N. spends 
its time on.
    So I think it is obvious that there needs to be some 
serious reform. I think the only way to reform that is with the 
U.S. at the table but I think it is time for the U.S. to exert 
that strong leadership and I am excited to be here and part of 
that conversation.
    I yield back.
    Ms. Ros-Lehtinen. So are we. Thank you so much.
    Mr. Zeldin.
    Mr. Zeldin. Thank you, Madam Chairman.
    And I wanted to just weigh in in support of a few positions 
that I feel very strongly about. One, that the United States 
should have never let that U.N. Security Council Resolution to 
pass. The irony that it was passed the day before Hanukkah and 
yet, just before that, there was a White House menorah-lighting 
ceremony to celebrate the Maccabees fight for freedom on the 
land that they lived, fought, prayed for, Judea and Samaria, 
land that this resolution says is an illegal occupation.
    I agree with Mr. DeSantis that our funding should be 
removed from the United Nations until this U.N. Security 
Council resolution is reversed. The United Nations is becoming 
a force for exactly what it was created to fight against. We 
should not be providing aid to the Palestinian Authority while 
they are funding terror, rewarding people, murdering innocent 
Israelis and Americans in the case, for example, like Taylor 
Force. We need to have both sides recognizing each other's 
right to exist, tackle the BDS movement, move the Embassy from 
Tel Aviv to Jerusalem, stand with our nation's greatest ally.
    I yield back.
    Ms. Ros-Lehtinen. Thank you very much, sir.
    Ms. Wagner is recognized.
    Ms. Wagner. Thank you, Madam Chairman. And I must first 
just say I am thrilled to be a new member of the Foreign 
Affairs Committee and certainly on this subcommittee. And I 
thank the chairman for organizing an excellent hearing, and 
thank our witnesses for being here today.
    Given the Obama administration's secret support for 
Security Council Resolution 2334 and silent release of $221 
million to the Palestinian Authority, not to mention the 
administration's horrific $400 million ransom payment to Iran 
last year, it is nice to be able to, once again, discuss U.S. 
relations with Israel, I will say, in the light of day, instead 
of in the shadows and after the fact.
    As a former United States Ambassador, I believe deeply in 
the power of the American leadership at the international 
bargaining table. And I am excited to learn today how, under a 
new administration, our country can start acting like a leader 
by confronting, instead of acquiescing to the U.N.'s radical 
bias against Israel.
    I thank you and I yield back.
    Ms. Ros-Lehtinen. I thank you, Ms. Wagner.
    Mr. Chabot.
    Mr. Chabot. Thank you, Madam Chair. Thank you for calling 
this very important hearing. And I want to apologize ahead of 
time, we have a markup in Judiciary that I am going to have to 
run to.
    But I just wanted to say quickly, even though he is the 
minority witness, I wanted to welcome and thank Congressman 
Wexler for being here today. We happen to serve on both the 
Judiciary and the Foreign Affairs Committee together. In 
Judiciary, we got to be on opposite sides of William Jefferson 
Clinton's impeachment. But on this committee we generally 
agreed and we went all the way to the Hague together, two 
Members of Congress, bipartisan to defend the hostile actions 
from much of the world against Israel when they were building 
the wall or the barrier, fencing, whatever you want to call it, 
to protect Israel's citizens from an onslaught. I believe it 
was during the Second Intifada, if I am not mistaken.
    And we made the point there that it was not Israel that 
should be condemned by the U.N. or the world or anybody else. 
It is those people who raise their children to aspire to be 
suicide bombers. Those are the people that should be condemned 
by the world and not Israel, who is simply trying to defend 
itself.
    So even though I will not be here to hear your testimony or 
the other gentlemen here today, I can assure you that I will 
read the transcript. And thank you all four for being here.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Chabot.
    Those are the members who had indicated that they wanted to 
speak. And seeing no other calls for that time, we are pleased 
to introduce our witness.
    First, we are delighted to welcome Mr. Hillel Neuer. He is 
the executive director of U.N. Watch, a Geneva-based NGO that 
monitors the U.N. and promotes human rights. Mr. Neuer is an 
expert on the U.N. Human Rights Council, has addressed every 
single one of its 33 regular sessions. We look forward to your 
testimony, Hillel, and we thank you for traveling so far to be 
with us this morning.
    In the interest of full transparency, I will tell you that 
he presented me with a coffee mug, well within the ethics 
rules, Mr. Deutch. And I like it that you put the criticism of 
your organization from UNRWA. Yes, we are known by our enemies. 
Congrats.
    And next we would like to welcome Mr. Brian Hook, who is 
the founder of Latitude, LLC. Prior to this, he served as 
Assistant Secretary of State for International Organizations 
and as Senior Advisor to the U.S. Ambassador to the United 
Nations. Welcome, Mr. Hook.
    I would also like to welcome back to our subcommittee Dr. 
Jonathan Schanzer, who is the senior vice president of research 
for the Foundation for Defense of Democracies. Dr. Schanzer 
served as a counterterrorism analyst at the Department of 
Treasury and prior to that worked as a research fellow at the 
Washington Institute for Near East Policy. Welcome back, 
Jonathan.
    And last but not least, as Mr. Chabot pointed out, we are 
so pleased to welcome back Mr. Robert Wexler, who formerly was 
a member of the Florida Delegation to Congress is now president 
of the S. Daniel Abraham Center for Middle East Peace. During 
his time in Congress, Mr. Wexler was the chair of the 
Subcommittee on Europe of the House Foreign Affairs Committee, 
served on the Middle East Subcommittee.
    And we miss you here in Congress so much, Mr. Wexler, we 
don't get to see you enough. So thank you very much for joining 
us.
    And he more or less had your seat or Lois Frankel, yours? 
Okay. All right, wonderful. Welcome back.
    And Mr. Neuer, we will begin with you. Thank you so much. 
And as I said, all of your statements will be made a part of 
the record.

  STATEMENT OF MR. HILLEL NEUER, EXECUTIVE DIRECTOR, UN WATCH

    Mr. Neuer. Chairman Ros-Lehtinen, Chairman Smith, Ranking 
Member Deutch, Ranking Member Bass, distinguished members of 
the subcommittee, thank you for providing me with this 
opportunity to testify on the important matter of the United 
Nations, Israel and the Palestinians.
    Alarming actions by the U.N. have drawn renewed attention 
to the world body's patterns and practice of scapegoating 
Israel and to the vast infrastructure that the U.N. has 
constructed to demonize the Jewish State.
    Now normally, the one U.N. body that is protected from the 
campaign to single out Israel for discriminatory treatment is 
the Security Council. Normally, the United States uses its veto 
power in that body to deter or defeat unbalanced, unfair, and 
unhelpful initiatives. That is why all of us were astonished to 
see the Obama administration, in its last days, break with 
tradition and allow the enactment of Resolution 2334. It sent 
the message to the Palestinians that they have no need to 
negotiate but can wait for the U.N. to give them everything 
they demand.
    It encourages efforts to prosecute Israeli leaders and 
officers at the International Criminal Court and boycott 
campaigns. Former Secretary of State Kerry said that the 
resolution condemned Palestinian terrorism and incitement. In 
fact, the text nowhere attributes these crimes to Palestinians. 
Absurdly, Jerusalem's Temple Mount and Western Wall, those 
holiest sites in Judaism, together with the Jewish Quarter of 
the Old City, are all defined by 2334 as <greek-l>quote 
deg.``Occupied Palestinian Territory.''
    Now Congress should make clear that accusing the Jewish 
State of illegally occupying its holiest sites and historic 
capital is as absurd as saying that the Vatican is illegally 
occupied by the Catholic Church, that Mecca is illegally 
occupied by Muslims, or that London, Paris, and Washington are 
illegally occupied by the British, French, and Americans.
    If the Security Council is normally the exception, what 
preceded that decision in 2016 is the rule. In March, the 
Commission on the Status of Women condemned Israel as the 
world's only violator of women's rights, ignoring real abusers, 
such as Iran and Saudi Arabia. At the same time, the Human 
Rights Council celebrated its 10th anniversary, a decade in 
which it adopted 68 resolutions against Israel and 67 on the 
rest of the world combined.
    The Council also appointed Canadian Law Professor Michael 
Lynk as the <greek-l>quote  deg.``Special Rapporteur on 
Palestine,'' whose mandate actually is to investigate Israel 
only. While all U.N. monitors are obliged to be impartial and 
though Mr. Lynk was expressly asked in his application about 
his objectivity, he failed to disclose his long record of anti-
Israel lobbying, or his board membership on three pro-
Palestinian organizations, including Friends of Sabeel. He now 
has that post for the next 6 years.
    In May, the U.N.'s World Health Organization singled out 
Israel as the only violator in the world of <greek-l>quote 
deg.``mental, physical, and environmental health.'' In 
September, U.N. expert Dubravka Simonovic, summing up her visit 
to the Palestinian territories, concluded that when Palestinian 
men beat their wives, it is Israel's fault.
    In October UNESCO negated its mandate to protect world 
heritage by adopting the resolution which used Islamic-only 
terms for Jerusalem's Temple Mount, denying thousands of years 
of Jewish and Christian heritage, religion, and culture. In 
December, the General Assembly adopted 20 one-sided resolutions 
against Israel and only six on the rest of the world combined. 
There was not one resolution on Saudi Arabia, China, Cuba, 
Venezuela, Turkey, and many other serial human rights abusers.
    Now, as the chairman indicated, one of the worst offenders 
is UNRWA. This morning, U.N. Watch published a 130-page expose 
entitled ``Poisoning Palestinian Children: A Report on UNRWA 
Teachers' Incitement to Jihadist Terrorism and Antisemitism.'' 
This reports documents 40 cases and is now online at 
unwatch.org. With your permission, I will submit the report to 
enter it into the record.
    One can see Facebook pages of UNRWA teachers celebrating 
the kidnapping of Israeli teenagers, cheering rockets fired at 
Israeli civilians, erasing Israel from the map and posting 
overtly anti-Semitic videos, caricatures and statements. Last 
year we exposed 30 cases. UNRWA's response, as you read from 
the mug, was to attack U.N. Watch and to deny the problem. We 
know of not one racist teacher who was fired.
    In October 2015, the U.K. banned a teacher for life from 
the classroom for a Facebook post praising Hitler. In our 
report, there are two staffers who published the identical 
Hitler photo and comment and I want to know why are U.K. 
children protected from racist teachers, while Palestinian 
children are left exposed to this poison.
    There is a new U.N. Secretary-General and there is a new 
concern about funding. He said he would be on the front line in 
the battle against anti-Semitism. We have just sent him the 
report and we hope that, indeed, he will be on the front lines.
    The U.S. Congress is the one reliable force that can hold 
the U.N. to account. I thank you for your continued noble 
efforts. There is more in my written remarks about which I 
would be happy to elaborate.
    [The prepared statement of Mr. Neuer follows:]
    
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
   
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, sir.
    Mr. Hook is recognized.

 STATEMENT OF THE HONORABLE BRIAN HOOK, FOUNDER, LATITUDE, LLC

    Mr. Hook. Madam Chairman Ros-Lehtinen, Chairman Smith, 
Ranking Member Deutch, I thank the committee for giving its 
attention to reforming the United Nations and ensuring the fair 
treatment of Israel at the U.N. My testimony will draw from 
personal experience serving as a senior advisor to the U.S. 
Ambassador to the U.N. for 2 years and also serving as 
Assistant Secretary of State for International Organizations.
    I think that my working in mutually supportive roles, the 
Congress and the Trump administration have a very good 
opportunity to foster a more accountable and transparent United 
Nations to advance American interests. But the U.S.-U.N. 
relationship will never be fully successful, so long as one of 
our closest allies is singled out unfairly at the U.N.
    I think this committee knows very well that Israel an 
almost robotic hostility at the United Nations over many 
decades. And last year was particularly disappointing, when we 
look at actions taken by the Human Rights Council on 
blacklists, the UNESCO Resolution on the Temple Mount, 2334, 
and then the U.N. General Assembly resolutions.
    I want to just share my general approach on how to work 
effectively with the United Nations and also highlight some 
reforms. I think taken together they can help advance the 
interests of the United States, as well as Israel, because our 
interests so often overlap at the U.N.
    I believe as a first principle that the United States needs 
to maintain diplomatic flexibility, working with the U.N. when 
it advances our interests and promotes the cause of peace and 
looking elsewhere when success is unlikely and would lead to 
failures in multilateralism. This requires making prudential 
judgments on a case-by-case basis.
    The U.N. Security Council can often advance our interests 
because it is a force multiplier. It helps our allies take 
action because it gives them political and legal cover back 
home and it can also help us diplomatically isolate our 
opponents. But we can never allow the U.N. Security Council to 
hold our security concerns hostage, nor should we encourage or 
allow the council to opine or vote on matters that are properly 
between Israel and the Palestinians.
    The U.N. Security Council remains the single worst forum in 
the world to facilitate peace in the Middle East. I think, 
instead, the council should shift action. We should be always 
working to shift action away from the council and toward direct 
negotiations. And I do believe that we should put serious 
diplomatic support behind Israel's candidacy for a nonpermanent 
seat and we should ask the Europeans to support it, as part of 
our bilateral agenda with our European allies.
    With regard to the U.N. Human Rights Council, my own view 
is that formal participation by the United States in this body 
legitimizes it without sufficiently advancing human rights. A 
top item on the Bush administration list when I served at the 
U.N. was abolishing the U.N. Human Rights Commission and we 
fought for the necessary reforms but pressure within the U.N. 
system to reach multilateral consensus caused our proposals to 
get watered down repeatedly and we ended up voting no against 
the resolution. The very advocates for the reform in the first 
place decided to vote against it.
    Our dissent at the time was joined by only three countries 
and Israel was one of them. At the time, we were attacked for 
standing in the way of reform and we were mocked during the 
vote for being so isolated but time has vindicated our 
decision. The council has behaved entirely as we predicted it 
would in 2006 when we were in the General Assembly. It remains 
biased against Israel. It includes repressive governments among 
its members and it fails to condemn many of the world's worst 
human rights abusers.
    And so I favor withdrawing from the Human Rights Council 
until it adopts the reforms necessary to be a body worthy of 
its name. But I think that any decision should be taken in 
consultation with our allies, especially Israel, who would face 
an even more hostile body without the United States as a formal 
member.
    UNESCO's approval on Palestine as a member, I think I agree 
with earlier statements. I think that we should maintain a 
clear policy of refusing to pay dues to any institution that 
accepts Palestine as a state before an Israeli-Palestinian 
peace deal is reached.
    In closing, President Truman saw the United Nations as part 
of <greek-l>quote  deg.``a chain of defense to protect this 
beloved country of ours.'' And in 1952 he said that if we keep 
working at it, the U.N. will become what it was intended to be.
    Almost 70 years later, people are understandably 
questioning whether the U.N. will ever live up to the 
intentions of its founding nations. But I know from personal 
experience that international organizations can concretely 
advance American interests when used rightly. When 
multilateralism is understood as a means to an end and not an 
end in itself. I am happy to take questions after our 
statements and I, again, thank the committee for inviting me.
    [The prepared statement of Mr. Hook follows:]
    
  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you, Mr. Hook.
    Dr. Schanzer.

   STATEMENT OF JONATHAN SCHANZER, PH.D., VICE PRESIDENT FOR 
        RESEARCH, FOUNDATION FOR DEFENSE OF DEMOCRACIES

    Mr. Schanzer. Chairman Ros-Lehtinen, Chairman Smith, 
Ranking Member Deutch, Ranking Member Bass, and distinguished 
members, thank you for the opportunity to testify.
    While U.S.-Israel ties remain strong, thanks to the role of 
Congress, recent years have witnessed some low points in the 
bilateral relationship from tensions over the deeply flawed 
Iran deal to the shameful abstention on U.N. Security Council 
Resolution 2334. The Obama White House broke dramatically from 
long-standing policies.
    The new administration has indicated that it wants to 
restore ties to previously warm levels and, among other things, 
it seeks to address the anti-Israel bias at the U.N.
    Here are four of my recommendations to get things started. 
First, we need to reform the U.N. 1267 Committee; this is the 
U.N.'s terrorism sanctions list. Currently, it only includes 
al-Qaeda, the Taliban, and the Islamic State. Hamas, Hezbollah, 
and other terrorist groups are not included. This list needs to 
reflect the full range of threats to the U.S. and its allies.
    Second, we must reform and ultimately phase out UNRWA, 
which is the U.N.'s agency that support Palestinian refugees. 
Today there are 30,000 to 50,000 surviving members from the 
original wars of 1948 and 1967 but because UNRWA counts the 
offspring of the original refugees, the children, 
grandchildren, and great grandchildren, that number is now 
counted as 5 million. In other words, UNRWA is making more 
refugees, rather than settling them. Meanwhile, the agency 
stands accused of cooperating with Hamas. UNRWA must be brought 
to account.
    Third, we should eradicate the U.N. Human Rights Council. 
It is simply Orwellian. Iran, Cuba, Venezuela, Syria, and other 
states that engage in war crimes and massive human rights 
violations lambaste Israel while failing to be held to account. 
In March, as noted, the council voted to create a blacklist of 
companies that work in the West Bank, Jerusalem, and the Golan 
Heights. These are companies that foster cooperation between 
Palestinians and Israelis. Congress and the administration 
should spike the blacklist and work to end the tenure of this 
grotesque body.
    Fourth, it is time to examine the U.N.'s Interim Force in 
Lebanon. Under Security Council Resolution 1701, UNIFIL was 
tasked to ensure that Hezbollah did not rearm but Hezbollah has 
some 150,000 rockets furnished by Iran. The administration and 
Congress should determine whether UNIFIL is worthy of 
reauthorization. I suspect it is not.
    But reforming the U.N. alone is insufficient. Congress and 
the administration should review U.S. ties with the PLO. 
Congress has long expressed concern that the PLO pays the 
salaries of terrorists in Israeli jails and fans the flames of 
incitement. And there are other issues, too. For example FDD 
received unconfirmed reports in November from the West Bank 
that the U.S. and the PLO possibly coordinated ahead of 
Palestinian President Mahmoud Abbas' September 22nd speech at 
the United Nations. Indeed, the United States may have even 
helped transfer funds to the PLO institutions to help Abbas 
promote his policies. I think Congress might want to 
investigate this.
    Congress may also wish to investigate the PLO's possible 
role in the boycott campaign against Israel, which runs counter 
to U.S. policy. We received reports that the PNF, the Palestine 
National Fund, the PLO's treasury may be active in this area. 
We also received reports that the PLO mission in Belgium may be 
running an ``operations room'' for European BDS activities. The 
PLO Embassy in Washington may also be involved in coordinating 
U.S.-based BDS activities as well.
    Then there is the PLO leadership crisis. While Abbas is 
rightly touted as being committed to nonviolence, this is not 
the same as being a proponent of peace. As PLO Chief he has, 
for years, refused to negotiate in good faith. Twelve years 
into Abbas' 4-year term with no successor in sight, time is 
running out to identify new leadership committed to good 
governance and peaceful coexistence with Israel.
    Before I conclude, I want to suggest three other steps that 
Congress might consider to strengthen U.S.-Israel ties.
    For one, the Trump administration reportedly seeks to 
negotiate several new trade agreements. This presents new 
opportunities to include clauses that discourage boycotts 
against U.S. allies, including Israel. Congress can also 
consider changing the anti-boycott provisions of the Export 
Administration Act. These provisions were originally designed 
to combat the Arab League boycott. They can now be updated to 
target broader boycott activity. The Commerce Department could 
then be empowered to fend off economic warfare campaigns 
against the U.S., Israel and other allies.
    Finally, Congress might consider updating the Export 
Administration regulations and to upgrade Israel to tier 1, 
rather than tier 2 as part of the Strategic Trade 
Authorization. This would allow Israel to quickly procure key 
military components during periods of conflict. It would 
enhance Israel's qualitative military edge and our strategic 
cooperation at the same time.
    Madam Chairman, Mr. Chairman, I cover more in my written 
testimony but, in the interest of time, I will end here.
    On behalf of FDD, thank you for inviting me today. I look 
forward to your questions.
    [The prepared statement of Mr. Schanzer follows:]
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
      
                              ----------                              

    Ms. Ros-Lehtinen. Thank you, sir.
    And now Mr. Wexler.

STATEMENT OF THE HONORABLE ROBERT WEXLER, PRESIDENT, S. DANIEL 
              ABRAHAM CENTER FOR MIDDLE EAST PEACE

    Mr. Wexler. Thank you Madam Chairman for your 27 years of 
service to Florida and to the nation. Thank you, Chairman 
Smith, Ranking Members Deutch and Bass, members of the 
subcommittee.
    It is undeniable that the United Nations has demonstrated a 
systematic obsession with unjust criticism of Israel and an 
institutional anti-Israel bias for decades. During its 2015-16 
session, the U.N. General Assembly passed 20 resolutions 
targeting Israel, more than all other countries combined.
    The damaging legacy of GA Resolution 3379, Zionism is 
Racism, passed in 1975 and rescinded in 1991, is a network of 
well-funded U.N. structures committed to the delegitimization 
of Israel and boycott, divestment and sanction efforts.
    The Committee on the Exercise of the Inalienable Rights of 
the Palestinian People is the U.N. structure most responsible 
for the political, economic and diplomatic assault against 
Israel. Also, standing Item 7 of the Human Rights Council 
irrationally discriminates against Israel and is a poorly 
disguised mechanism to discredit the Jewish State. The 
historically unfounded collective efforts of UNRWA and UNESCO 
denying the Jewish character of Israel, contribute to 
Palestinian obstinance and encourage their unrealistic demand 
for a full right of return.
    Congress and the administration should work with Secretary 
General Guterres, who just this week clearly documented the 
Jewish connection to the land of Israel, to dismantle the anti-
Israel U.N. infrastructure and repeal Item 7 or lead boycotts 
against it. Defunding UNRWA would be counterproductive because 
Israel and Jordan would bear the additional burden.
    For the benefit of Israel, Palestinians and U.N. 
credibility, Congress should exercise its leverage to reform 
the problematic U.N. infrastructure, reflecting a renewed 
international commitment to a negotiated two-state outcome 
focused on building Palestinian institutions and economic 
growth.
    Any successful strategy must take into account promising 
regional developments. Prime Minister Netanyahu has long 
maintained that the Israeli-Palestinian conflict results from 
competing historical narratives. Israeli Defense Minister 
Lieberman advocates for a regional approach to peace making. 
Both men are correct and the positive responses of the Sunni-
Arab States to former Secretary of State Kerry's final address 
on Middle East peace demonstrate the new regional dynamic. 
Paramount among Kerry's six principles was the vision of GA 
Resolution 181 calling for the establishment of two states for 
two peoples, one Jewish, one Arab, with mutual recognition and 
equal rights for all citizens.
    The positive reaction to the principle of two states for 
two peoples by Saudi Arabia, the United Arab Emirates, Bahrain, 
Egypt, Jordan, Qatar and Turkey, among others, opens the door 
to the reconciliation of the competing historical narratives 
that Prime Minister Netanyahu speaks of.
    I just visited Russian Deputy Foreign Minister Mikhail 
Bogdanov and others in Moscow. We share certain common 
objectives with Russia on the Israeli-Palestinian issue, as we 
do our European allies. In fact, if reformed, the U.N. 
committees and Middle East Quartet can be instrumental in 
helping the Israelis and Palestinians forge an international 
consensus based on a regional strategy that ends the conflict; 
guarantees a Jewish majority, democratic State of Israel that 
is secure; and implements the right of self-determination of 
the Palestinian people in their own state. By genuinely 
promoting a negotiated two-state outcome, the U.N. would 
further isolate Iran and Israel's enemies that reject Israel's 
right to exist.
    The Obama administration's recent abstention on Resolution 
2334 was, in my view, a clumsy attempt to restate America's 
long-standing bipartisan policy of opposing unilateral steps by 
any party, including settlement building east of the 1967 
lines. Please, though, we should not practice selective memory. 
Every U.S. administration since 1967 has, at times, abstained 
from or cast votes critical of Israeli policy at the U.N.: 
President Johnson 7 votes; Nixon 15; Ford 2; Carter 14; Reagan 
21; H. W. Bush 9; Clinton 3; W. Bush 6; Obama 1.
    The biggest problem with the resolution is that it failed 
to distinguish between those settlements that are adjacent to 
the 1967 lines and are consistent with the negotiated two-state 
outcome and those settlements that are outlying and, therefore, 
undermine a two-state solution.
    President Trump recently referred to the Israeli-
Palestinian conflict as the ultimate deal. His characterization 
is correct. Without a resolution, however, the Zionist dream is 
endangered and Israel will likely end up a binational state, 
half Jewish, half Arab. Don't let that happen on our watch.
    One final thought, Madam Chairman. As President Trump 
rightfully formulates a tough response to Iran's latest 
provocation, he is likely to implement his strategy through the 
U.N. Security Council. Now is not the time to undermine 
President Trump's legitimate efforts at the U.N.
    Thank you.
    [The prepared statement of Mr. Wexler follows:]
    
    
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
   
                              ----------                              

    Ms. Ros-Lehtinen. Thank you very much, Mr. Wexler. And as I 
said, I am just so thrilled with all of our new members. So I 
will switch times and spots on the speaking and question and 
answer period with Ms. Wagner. So, I will turn to her first.
    Ms. Wagner. Thank you, Madam Chairman for the indulgence. 
And I thank you all for joining us today.
    As a representative of the Second District of Missouri, I 
am proud of the many refugees we have welcomed in from across 
our world. One example in my district are the many wonderful 
Bosnian refugees who have learned English, started small 
businesses and integrated into the St. Louis region. Many of 
these men and women and their children and grandchildren have 
become true leaders in our community. However, it is well 
understood that the descendants of these refugees, albeit 
having unique experiences and histories, are American citizens, 
not refugees. The U.N. would agree. The United Nations Relief 
and Works Agency for Palestine Refugees in the Near East would 
inexplicably not agree.
    Moreover, the United Nations Relief and Works Agency for 
Palestine Refugees in the Near East, UNRWA, has exacerbated 
extremism in the region by conducting parliamentary training in 
UNRWA schools, hiring employees affiliated with Hamas in 
defiance of U.N. and U.S. rule, and enabling weapons to be 
stored in UNRWA facilities.
    Mr. Schanzer, in your opinion, does United Nations Relief 
and Work Agency for Palestine Refugees in the Near East serve 
purposes that the Palestinian Authority, the U.N. High 
Commissioner for Refugees, and other U.N. offices could not 
serve?
    Mr. Schanzer. Thank you, Congresswoman Wagner. Look, it is 
a terrific question and I think one that we have been 
struggling with for quite some time. UNRWA is the only agency 
that is dedicated to a specific refugee population. Every other 
one is handled through the High Commission on Refugees. And so 
it makes very little sense that UNRWA would continue to exist 
with this one purpose.
    I see no reason why the High Commission couldn't handle the 
same refugee problem. And this is, in effect, what I would 
recommend, that over time we want to phase this out.
    There is, I think, one caveat and that is that there are 
destitute Palestinians that rely on this assistance and then if 
you took that assistance away, then you could see pandemonium 
break loose within the West Bank, the Gaza Strip, and perhaps 
other Palestinian refugee camps. So you want to make sure that 
the services continue but that the political aspects of UNRWA 
are removed and that ultimately the treatment of refugees 
themselves, currently numbered somewhere between $30,000 to 
$50,000 by best estimates----
    Ms. Wagner. The political aspects, along with a number of 
these conducts.
    Mr. Schanzer. Oh, absolutely. I mean obviously, in terms of 
its working with Hamas. Now, of course if you are going to work 
in the Gaza Strip, you probably can't help but to work with 
Hamas. But storing weapons underneath facilities is something 
that cannot go unaddressed.
    Ms. Wagner. Thank you.
    Mr. Neuer, can you please discuss how the United States 
should condition its funding to ensure that U.S. dollars are 
not contributing to an agency that is exacerbating tensions in 
the region and undermining Israel-Palestine prospects for 
peace?
    Mr. Neuer. I think you are touching on a very important 
point. There is no question that the United Nations, at this 
moment, is deeply concerned about its funding and is very 
attentive to the concerns of its donor states, the foremost for 
UNRWA, which is the United States.
    I think the first thing that the United States needs to do 
is to demand accountability in a serious way and I am not sure 
in the past 2 years when we issued comparable reports to the 
one that we released today, I am not sure that we saw the U.S. 
demanding real accountability. We did not see any public 
statements from Ambassador Samantha Power, regrettably, 
criticizing UNRWA. On the contrary, there were public 
statements that always praised UNRWA.
    So I think the first thing we need to see is to test 
accountability by making serious demands. That is why this 
morning we have written to Secretary of State Rex Tillerson and 
to Ambassador Nikki Haley to urge them to demand from the U.N. 
Secretary-General and from UNRWA that they clearly condemn 
incitement to terrorism and anti-Semitism, which is rampant in 
the organization.
    Ms. Wagner. Thank you, Mr. Neuer. And also if you could 
briefly here in my limited time discuss options for 
institutional reform that would ensure the UNRWA is not a 
vehicle for Palestinian resentment and actions against Israel.
    Mr. Neuer. Well, I think one of the problems----
    Ms. Wagner. And perhaps you are on the road to that right 
now with the letters that you have currently.
    Mr. Neuer. Thank you, yes. Well, I think one of the 
problems is that when one releases information like this, the 
response of some UNRWA donors is to say well, we have deleted 
the Facebook page and the problem is solved.
    Well the core problem of UNRWA, as I mention in my written 
remarks, is the narrative of UNRWA, which really undermines the 
existence of the State of Israel with the 5 million so-called 
refugees.
    But beyond that, the fact that there are teachers, at least 
20 teachers today who post pictures of Hitler and celebrate 
terrorist attacks, the problem isn't that they have a Facebook 
post. The problem is why are pro-Hitler teachers----
    Ms. Wagner. Allowed.
    Mr. Neuer [continuing]. Standing before students.
    Ms. Wagner. Absolutely.
    Mr. Neuer. That is what we need to see.
    Ms. Wagner. Thank you. I appreciate the indulgence of your 
time.
    I yield back.
    Ms. Ros-Lehtinen. Thank you very much, Ms. Wagner. 
Excellent questions.
    And now I will turn to my co-chair, Mr. Deutch.
    Mr. Deutch. All right. Thank you, Madam Chairman.
    Congressman Wexler, let me just start by saying that you 
served your constituents well. I do not wish that you were 
here, at least not serving in the seat that you held so 
admirably for so many years, but I do want to ask you a couple 
of questions.
    I guess the first question is what should the United States 
do to ensure that the two-state solution, which is, ultimately, 
the goal, certainly the stated goal of the Israeli Prime 
Minister--what should the U.S. to ensure that a two-state 
solution remains viable?
    Mr. Wexler. Thank you. There are a number of things that we 
can do and there a number of things we should not do. First 
off, we should not impose solutions. That is not the role of 
the United States in terms of a friend and an ally. Israel is a 
democratic state and it should protect her own interests. But 
what we can do, number one, is recognize that there are two 
sides to this equation or even more than that. There are 
Israeli responsibilities, there are Palestinian 
responsibilities and there are responsibilities of the larger 
Arab world. We need to encourage a dynamic that promotes a 
legitimate discussion, negotiation between the Israelis and the 
Palestinians. To the point of this hearing, specifically, and 
the criticism that has been voiced of the resolution before the 
United Nations, much of which I agree with.
    But let's be candid about it. Yes, the terminology of the 
resolution has its tremendous flaws, as was pointed out, but 
there were certain actions taken by both the Palestinians, 
which should be condemned, but also the most recent Israeli 
Government, which set in motion a set of circumstances that 
were far more dire than an Israeli Government had done before.
    For instance, just this week the Israeli Knesset is 
considering a legalization bill that will set in process a 
troubling trend of outlying settlements being legalized, 
contrary to Israeli law and international law.
    Ironically, compared to our own situation this week, the 
Attorney General of Israel appointed by Prime Minister 
Netanyahu has concluded that he will not enforce the 
legalization bill that is likely to be passed by the Knesset 
because it violates Israeli law and international law. This was 
the dynamic in which President Obama made the decision that he 
made. Now, I am not justifying the decision but if we want to 
at least analyze it from a full perspective, understand there 
are two sides.
    But to the question of settlements, if I may, what we 
should encourage the Israeli Government to do. Congressman 
Chabot referenced that he and I went to the Hague to argue on 
behalf of Israel's right to build the security fence and, 
thankfully they did, in response to the Intifada, the last 
terrible Intifada that occurred.
    Well, now you have an Israeli-created border in effect. 
Inside that border, in my humble opinion, President Trump 
should say to Israel go ahead, build what you want because 
those settlements, by and large, are consistent with a 
negotiated two-state outcome. But outside of that wall Israel 
created, don't build. The announcements this week that Israel 
created, most of it was within the wall but a lot of it was 
outside of it. Don't do that.
    And what Israel should also say to the world, not withdraw 
its forces from the West Bank and create a security vacuum but 
what it should announce to the world and its people is that 
they don't have any sovereignty claims beyond the security 
fence that they built for their own defense. If they do that, 
their degree of moral credibility and the degree of credibility 
they would have in terms of the totality of their policies 
would enhance their friends here in Washington. And the last 
thing that we should do is get out of the U.N. or reduce our 
role or reduce our funding because that will dramatically 
impact Israel in a negative way.
    Mr. Deutch. Thank you.
    Dr. Schanzer, I don't have a lot of time left but you had 
suggested that the United States helped the PLO transfer funds 
to promote Abbas' policies to help him lobby. I am not sure 
that I understand what that means.
    Were these taxpayer dollars? What are you suggesting 
happened here?
    Mr. Schanzer. Congressman Deutch, thank you for the 
question. We received two reports from the West Bank earlier 
this year, right around Abbas' speech on September 22nd, that 
funds may have been transferred to PLO Institutions ahead of 
this. What they were used for is entirely unclear. The 
implication was is that it somehow served to benefit the PLO.
    I have these two reports. I have got nothing that I have 
seen beyond that. It hasn't appeared in Arabic, Hebrew, or 
English, other than these two reports coming from the West 
Bank.
    I raise it because of course we now know of the transfer of 
funds that happened at the 11th hour of the Obama 
administration, as the President was on his way out. It 
certainly struck me as curious, to say the least.
    Mr. Deutch. Well, I am out of time. But just on that one, 
there is some--I hope that others will ask because I am still 
not sure. There were two reports that were some transfers of 
some money. It is a rather explosive charge you are making and 
so I hope we will have a chance to talk more about that.
    And with respect to the $220 million, I hope we can benefit 
from the insight of our witnesses but it is my understanding 
that it was the result of a 2014 policy change that those 
dollars don't go to the PA, that they go toward paying Israeli 
creditors for electricity and medical services and humanitarian 
programs. And there has been a lot of focus on that $220 
million and I hope over the balance of this hearing we will 
have the chance to understand whether that was a payment that 
went in the dark of night into a PA slush fund, which some have 
suggested, or whether it was money that pursuant policy changes 
during the last administration went to Israeli creditors and 
humanitarian organizations. I just hope we will be able to get 
into that.
    Thank you, ma'am.
    Ms. Ros-Lehtinen. Thank you, Mr. Deutch.
    And now we will turn to the chairman of the Africa 
Subcommittee and all of those other titles, Mr. Smith.
    Mr. Smith. Thank you so much, Madam Chair.
    Thank you all for your great testimonies. It was very 
enlightening and very powerful.
    On the Human Rights Council, in the 1980s I joined Armando 
Valladares, who spent 14 years in Castro's gulags, was 
tortured--I have read his book twice, ``Against All Hope.'' It 
was an amazing chronicling of what Cuban gulags were all about.
    Well, Reagan named him, as you will recall, our Ambassador 
to the Human Rights Commission. He did a magnificent job. I was 
with him for the better part of a week in Geneva. And he, 
alone, persuaded people with a lot of backing of the Reagan 
administration to do a resolution on Cuba. U.N. investigators 
went to the prisons, interviewed, with an ironclad promise that 
nobody would be retaliated against, including their family 
members. When they left, everybody was retaliated against: 
Longer prison sentences, more torture, and their family members 
were harassed and worse.
    The Commission backed off, defaulted right back to agenda 
item number 8 and continued its singular focus on Israel. A 
decade ago, we were all hopeful that U.N. reform council 
standing up. And I was in Geneva and in New York on many 
occasions arguing for a credible U.N. Human Rights Council. And 
unfortunately, that has evaporated and we now have agenda item 
7, which is a distinction with very little difference to agenda 
item 8.
    And as you pointed out Mr. Neuer, and I joined you, and I 
was working hard, got nowhere--the fact that China, Cuba, and 
Saudi Arabia are back on as members in good standing on what 
should be an organization walking point on human rights, 
absolutely undermines the credibility of the Council.
    And again, when they, as Sharansky said, apply the double 
standards the demonization, and delegitimization of Israel so 
systematically, it is time for real reform. And my hope is that 
that will be something that is forthcoming.
    Because right now the U.N. Human Rights Council lacks 
credibility. Everyone should know it. As I said before, I 
chaired the Congressional-Executive Commission on China. I was 
in China last year, raising human rights. Xi Jinping, like Hu 
Jintao before him, is in a race to the bottom with North Korea 
on human rights and nary an ill word is said against China.
    Secondly, Resolution 2334 calls upon states to distinguish 
between the territory of the State of Israel and occupied 
territories. To me, this is ripped directly from the playbook 
of the boycott, divestment, and sanctions movement that seeks 
to isolate Israel and undermine the vitality of its economy. 
This hateful campaign has a common cause with anti-Semitism 
forces and seeks to delegitimize Israel. It is focused in 
particular on undercutting the legitimacy of all Israeli 
settlements, including the vast majority salvaged by private 
initiatives and in compliance with Israeli law.
    My question to the panel--Mr. Neuer, you might want to 
start. We may run out of time. What are the ideological 
underpinnings of the BDS movement and has this new resolution 
further harmed efforts to combat that anti-Semitism movement?
    Mr. Neuer. Thank you, Chairman Smith. I just do need to 
note that you mentioned Cuba, which has been ignored by the 
council and, instead is now one of its judges. I am happy to 
announce that the Cuban Human Rights hero, Danilo Maldonado, 
the artist El Sexto, who has just been released from prison 
thanks to your efforts, will be coming in a few weeks to our 
Geneva Summit for Human Rights and Democracy. We are thrilled 
about that, as will another dozen human rights heroes from 
China, Russia, Iran, Turkey, North Korea, Venezuela. Many of 
the countries that sit on the Human Rights Council that have 
immunity there, we will be bringing their victims to testify 
inside the U.N.
    In regard to your question about the boycott efforts, I 
fear that Resolution 2334 gives currency and urgency to 
existing efforts at the International Criminal Court to 
continue with its preliminary examination of so-called Israeli 
war crimes and that will also encourage the so-called 
blacklist, the database that the Human Rights Council has 
ordered against companies doing business with Israeli Jewish 
communities over the green line. I think there is reason to 
believe that the resolution encourages all of those dangerous 
efforts.
    Thank you.
    Mr. Wexler. If this new administration and this Congress 
were to identify one red line so it is clear to the U.N. in 
terms of where America will not go beyond, I would make it any 
policy that the U.N. advances that encourages and assists BDS 
movements will jeopardize its standing with the United States. 
Make it as clear as day.
    And with that, I think you will find you will get not just 
Republican support, quite frankly, you will get bipartisan 
support because the BDS movement, at its core, is anti-Semitic, 
as you rightfully point out. But it should be coupled 
respectfully with efforts that are not just punitive but 
positive, that are aiming toward a negotiated two-state 
outcome.
    For instance, on refugees and UNRWA. Don't just cancel 
UNRWA's money. Don't just threaten UNRWA, even though they 
deserve it. Why don't we try a strategy that transfers, 
particularly in Area A, where the Palestinians control 
everything, in theory, except for the ultimate security, where 
the Palestinians control the area, where there are refugee 
camps that are controlled and implemented by UNRWA, begin to 
transfer them over to the Palestinian Authority not as a 
penalty. Transfer the money to the Palestinian Authority but 
for the purpose of building Palestinian institutions so that 
Palestinian institutions learn to take care of their own people 
and, at the same time, it begins to end this disastrous 
ideology that the Palestinians have that they are all going to 
return to the State of Israel some day and have the whole lot 
of the land. That is not going to happen.
    So I would argue put out the red lines but also, consistent 
with American policy, provide the incentive for behavior that 
advances a negotiated two-state outcome and responsible 
Palestinian Authority behavior governing its own people.
    Mr. Smith. I would ask you to consent to two submissions be 
made a part of the record.
    Ms. Ros-Lehtinen. Without objection, we shall. Thank you.
    And now I will turn to Ms. Bass, the ranking member.
    Ms. Bass. Thank you. I wanted to ask a question related to 
the U.S. engagement at the U.N. to Representative Wexler.
    The New York Times reported last week that the Trump 
administration was preparing an executive order to condition 
U.S. funding to multilateral organizations and for treaty 
implementation if it didn't meet certain criteria. So this 
would include those organizations that give full membership to 
the PA or the PLO or any activity that circumvents sanctions 
against Iran and North Korea. Since then, the administration 
seems to have walked back the executive order. So I wanted to 
ask you what you think the risk and opportunities to 
conditioning funding like this. And can you provide examples of 
ways that conditions on funding might have worked in the past?
    Mr. Wexler. I can provide examples where we had unintended 
consequences where we withdrawal or limited funding, 
particularly on the context of the Israeli-Palestinian 
situation. It wasn't too long ago that the Palestinian Prime 
Minister, Prime Minister Fayyad, who I think all of us would 
agree, in the context of Palestinian politics, was the most 
pro-American, most transparent, most pro-peace Palestinian 
official that we have had. And what happened was there was a 
whole host of problems in the Palestinian sector and we 
withdrew and limited funding to the Palestinian Authority at a 
certain section of time.
    And what was the result? The result wasn't that Hamas was 
curtailed in its activity. The result wasn't that the violent 
ones within the PA were somehow marginalized. The result was 
there was an economic crisis in the West Bank and Fayyad paid 
the price. And Fayyad, the one guy who we really could count on 
for being transparent and playing by Western rules was 
marginalized and thrown out.
    The Trump administration was wise to bring back its 
language but that doesn't mean that it shouldn't employ very 
surgical, tactical maneuvers that condition our participation. 
That is fine but threatening over and over and away without 
providing a positive incentive has shown, in the past, not to 
work.
    Ms. Bass. As part of the assessed contributions to the U.N. 
regular budget, the U.S. contributes up to 22 percent. And kind 
of going along the same vein, do you think it is feasible for 
the U.S. to lower the requirement without compromising the 
U.N.'s ability to execute operations that are of paramount 
interest to U.S. security?
    Mr. Wexler. I think we should work with the new Secretary-
General to make the overall U.N. budgets far more efficient, 
which he has already done in his previous role, where my 
understanding is U.N. peacekeeping operations have become 
significantly more efficient in terms of the costs that are 
expended per peacekeeper. He has diminished costs of 
employment. He has even, my understanding is, moved big sectors 
of employment from high rent districts to lesser rent districts 
in different countries to reduce the overall costs. There are 
salary measures that can be taken. But I think this broad 
brush, America is going to reduce its percentage, is an excuse 
for some of our allies but even more importantly, those that 
don't necessarily see the world as America does to reduce their 
expenditures. The great secret about the U.N. is, yes, we pay a 
disproportionate share----
    Ms. Bass. Actually, before my time runs out I wanted to ask 
you a question. You ended by putting our abstention in its 
historical context with other administrations that have 
abstained before, so I wanted to know your opinion of what was 
so different about this time. Because it was really built as 
though it was almost the first time the U.S. had ever even done 
that.
    Mr. Wexler. Well, what was different, in fact, was that 
President Obama, for 7 years and 10 months, had stood by Israel 
in a way that no other President ever had. Great Presidents, in 
terms of Israel, that are absolutely pro-Israel Presidents, 
President Reagan, President George W. Bush, pro-Israel 
Presidents, didn't vote with Israel on several occasions. 
President Reagan condemned Israel's attack on the Iraqi nuclear 
facility. Thank goodness the Israelis did that. But was there 
an effort in this Congress, respectfully at the time, to defund 
the U.N. because President Reagan condemned the Israeli attack 
on the Iraqi nuclear facility? No. So, this does need to be put 
in a historical context but, more importantly, in terms of the 
immediate context.
    And again, I don't agree with the resolution and its 
language. It is counterproductive. And the Palestinians should 
be condemned and cajoled for using an international approach 
that won't get them the Palestinian State they deserve.
    But there is also behavior on the Israel side that is not 
helpful. And the Israeli behavior with respect to settlements 
now, and the Israeli Government's Labor Likud, they have done 
settlements. But in the last several weeks, they have done it 
with an aggressiveness that we have not seen before and that is 
not in their interests or ours.
    Ms. Ros-Lehtinen. Thank you, Ms. Bass.
    Mr. Kinzinger of Illinois.
    Mr. Kinzinger. Thank you Madam Chair.
    Just generally, again, I touched on it in the opening 
statement, but to talk about the broader U.N. issue. I think it 
is important to note that money can and should be used as 
leverage to reform, when it is necessary. We talk a lot about 
our involvement and I think that is important to note and we 
obviously have a disproportionate amount of money. And I think 
in that process, by the way, in having a disproportionate 
amount we put in, we also do have a disproportionate amount of 
influence in the organization, too, which I think is something 
to keep in mind.
    But I think when there is this talk--and we have heard this 
in different circles for as long as I have paid attention to 
politics about leaving the United Nations or shutting it down 
or kicking it out of New York City or whatever--I think it 
makes good domestic politics in some areas but I think it is 
very bad international politics.
    So domestically, sometimes, it may be tough to go home and 
defend why the United Nations can play an important role, when 
it comes to international politics I think it is important to 
defend that.
    Now as I mentioned earlier, when you have a genocide in 
Syria, when you have Russian behavior reigniting a war, in 
essence, in Eastern Ukraine, annexing Crimea, you have China, 
you have terrorism, and this is the effort that the U.N. spends 
their time on, you can see why people get very upset.
    So now is the time where the United States can use its 
leverage to enact change and enact reform. It is not going to 
look exactly like we want it to because this is a world 
organization, not an American organization, but I think it is 
important to understand the good things that the U.N. can do 
and not throw the baby out with the bath water.
    So I think we have an amazing opportunity in this process 
and I hope we seize it.
    Mr. Hook, I have a question for you. This year the U.N. 
Human Rights Council used one of its sessions to condemn Israel 
five times for human rights violations but only condemned 
countries like Syria once. President Obama and Ambassador Rice 
mistakenly believed our involvement in the council would make 
it a more effective forum to promote and protect human rights. 
Given that nothing has changed since then, how can the United 
States effectively cut its ties from this biased one-sided 
forum or how can we work from within the U.N. to ensure that 
any human rights forum actually does what it is supposed to do 
and condemns human rights violations instead of democracies?
    Mr. Hook. Thanks, Congressman, for your question.
    I think it is much better to exercise thought leadership 
and present a vision of what a functioning human rights body 
looks like and to hold the U.N. to that until it meets it. And 
when we participate as a formal member in the Human Rights 
Council, I understand that it can, at the margins, make a 
difference. But when this council passes 67 resolutions against 
Israel since 2006, and we are a member of it, we are part of 
it. Even when we vote against it, we are still part of it. We 
own some of that outcome.
    I think it would be much better for us to present a 
resolution in the General Assembly and to just set forth the 
reforms on membership criteria and other structural and 
membership criteria that are going to lead to a body that is 
worthy of its name. I think that is just the general approach.
    I think we should withdraw from the council. I think we 
should define what we think success looks like and work toward 
it until we have enough people supporting us.
    Mr. Kinzinger. Mr. Schanzer, I hope I said your name right. 
Close enough. President Abbas is in his 12th year of his term, 
obviously, not getting any younger. I believe he is better than 
the alternative, but I remain troubled by some of the 
doublespeak statements and incitement of violence. I think he 
has significantly hurt his credibility to make peace with 
Israel. Nevertheless, we don't seem to have an idea of what 
comes after. What do you think we can expect after Abbas?
    Mr. Schanzer. Thank you for the question. One of my 
colleagues, Grant Rumley at FDD recently concluded a report on 
succession and we have a real crisis brewing. Mahmoud Abbas, 
again, he has been nonviolent. He stopped the Intifada back in 
2005 and brought a certain amount of order to the streets of 
the West Bank but, at the same time, he has ensured that the 
younger next generation leadership has not been able to 
challenge him in any way. There are no elections to take place 
in the West Bank, at least at that level. Municipal elections 
can be held. But we have a real problem. There is a crisis 
brewing.
    Now, he has some challengers from the outside, Mohammad 
Dahlan, for example, who is in exile right now, has been trying 
to challenge his rule. My sense is that we are likely to see 
kind of a conclave of the PLO when it is time for Mahmoud Abbas 
to go and they will select someone from amidst that very small 
inner circle. The problem is that this will likely not reflect 
the popular sentiment. The people will want to be able to weigh 
in on their leadership. And the fact that we don't have a 
robust debate, or robust political system, I think it foretells 
a conflict that could be coming, a domestic conflict sort of 
like what we have seen with the Arab Spring.
    So one of the things that I have been saying before this 
committee for several years now and I continue to write about 
it is that we need to begin to have an earnest discussion about 
setting up next level leadership within the PLO if we want to 
have someone who continues to work with the Israelis who can 
ensure a certain amount of dialogue.
    Mr. Kinzinger. Okay. And I thank you all for being here.
    Just to wrap up, I will quickly say I would encourage 
everybody--in my prior life on Foreign Affairs I remember I 
visited Liberia. And you see the role that the U.N. can play in 
an area like that. Again, nobody else really has the capacity 
to do it in leveraging countries that don't have the capacity 
to do it on their own, I think that is important to note, too.
    With that, I will yield back.
    Mr. Smith [presiding]. Thank you, Mr. Kinzinger.
    I would like to recognize the gentleman from Rhode Island, 
Mr. Cicilline.
    Mr. Cicilline. Thank you, Mr. Chairman. I thank you again 
to our witnesses.
    I am wondering whether the panel has an assessment of what 
you think the likely leadership of the new U.N. Secretary-
General Guterres will be. He has made some comments regarding 
the Jewish connection to Jerusalem and the need for the U.N. to 
stay out of Israeli-Palestinian negotiations. And I am 
wondering whether you believe the Secretary-General will help 
remove some of the anti-Israeli bias at the U.N. Some of his 
language seems to suggest that.
    Mr. Schanzer. I think it is obviously early on in the 
tenure to make that determination. I think that certainly some 
of the comments that we have heard from the United States about 
willing to cut funds to the U.N. or to reform the U.N. I think 
they are being heard.
    And so while I think some of domestic discussion might seem 
a bit bombastic, it is resonating in Turtle Bay. it is 
resonating in Geneva. And I think that is important.
    And I think this gets to the broader point that right now 
we have a certain amount of leverage. We contribute roughly a 
quarter of or a fifth of the U.N. budget. They know that we are 
not happy. They know there is an administration who is looking 
at this right now. This is the opportunity from my perspective 
to put the U.N. on a performance enhancement plan. In other 
words, to lay out over the course of 1 year or 2 years what 
sorts of reforms we would like to see and what the consequences 
might be if those reforms are not met.
    And so this, I think, is the goal. I think we have actually 
started it without even having done it formally.
    Mr. Cicilline. Mr. Wexler?
    Mr. Wexler. This is an incredibly important point and I 
thank you for raising it. We have a new Secretary-General who 
yes, it is early, but he has got a record and his record is of 
a reformer, a structural reformer. That is why we supported him 
to be Secretary-General. He reduced costs, he did the kinds of 
things with salaries, he did the kinds of things with 
peacekeeping missions that we wanted him to do, that the 
Western Nations wanted him to do to make the place run more 
efficiently. Now it is time to take it to the next step, 
implement some of the reforms that have been identified today.
    But the worst thing we could do is handcuff a new 
Secretary-General by threatening to reduce our funding and, 
quite frankly, completely handcuff our new Ambassador to the 
U.N. Let her make a determination on the best way to maneuver 
through these problems to adopt the reforms we want.
    Mr. Cicilline. And actually with respect to that one, when 
the Palestinians were granted membership to UNESCO, Congress 
responded by cutting off U.S. funding to UNESCO.
    Mr. Wexler, does this kind of response discourage the 
Palestinians from seeking memberships in international 
organizations? And on the other hand, is there any evidence 
that it has encouraged any U.N. bodies or members to alter 
their positions or behave differently vis-a-vis Israel?
    Mr. Wexler. Correct me if I am wrong. My understanding is 
that it is American law that if these agencies admit the 
Palestinian Authority before the Palestinians received the 
State, that funding will be--American funding is taken away.
    Mr. Cicilline. Yes, my question is is that useful? Does it 
change behavior?
    Mr. Wexler. I think it is a close call. It is a justified 
American position in my humble opinion, a justified law but as 
it plays out, at times, it is a bit insane.
    I actually was on Jon Stewart's show about this issue some 
time ago and they did a whole skit on how American money was 
taken away from these organizations. And the bottom line was we 
were taking money away from books, from second grade students. 
Now certainly that is not the intent of the law and that 
doesn't help us but that oftentimes is the unintended 
consequence. So I think there is a balancing act.
    Mr. Cicilline. And with respect to U.S. participation on 
the U.N.'s Council, has the number of resolutions against 
Israel since our arrival on that council increased over time or 
decreased over time? And can we draw some conclusions about the 
presence of the U.S. on the council?
    Mr. Wexler. It has dramatically decreased and the most 
important point, which is a corollary to that was when we 
weren't on the commission. That is when Item 7 was adopted, 
which made the focus on Israel irrationally intense.
    But there is a counterpoint I think that is fair, too. And 
that is, even with our participation, the discrimination 
against Israel is way too much.
    Mr. Cicilline. And my final question, Dr. Schanzer, you 
spoke about succession as it relates to kind of what happens 
after Abbas. And this is actually for any members of the panel. 
Are there things that we can do or the U.S. can do to encourage 
a Palestinian plan for succession that we should be doing?
    Mr. Schanzer. Yes, we can ask for it. One of the things 
that we haven't done is actually engaged the Palestinians on 
what happens after Abbas. Quite frankly, I think U.S. policy 
for the last 10 years or so has been just simply to keep him in 
place because the alternative is Hamas. And we shouldn't forget 
that, of course, that Hamas can pose a significant danger to 
the stability of the West Bank but, at the same time, having a 
power vacuum can probably bring Hamas to power.
    Don't forget that, according to basic law, Palestinian 
basic law, the successor to Abbas for 2 months after his death 
is supposed to be the Speaker of Parliament. The Speaker of 
Parliament is a guy by the name of Aziz Duwaik and he is a 
member of Hamas.
    So there is going to be a battle that takes place whenever 
this happens. And as we have noted, Abbas is now 12 years into 
a 4-year term. He is getting up there, a pack a day smoker. 
From what we hear, he has had a couple of serious health 
issues. This is really rolling the dice at this point. So I 
think the moment is now to engage with the Palestinians and to 
start to talk about who might come after and how to ensure that 
it is done in an orderly way.
    Mr. Wexler. May I quickly? This, too, is an incredibly 
important point. What we need to do, in my humble view, in 
terms of succession of President Abbas, is make sure that those 
Palestinian leaders who adhere to a policy of nonviolence, that 
adhere to a belief in a negotiated two-state outcome, we need 
to give them victories. Because when that backdoor negotiation 
occurs and you have those Palestinian leaders that are not 
necessarily adhering to a nonviolent strategy versus the ones 
that do, well when the ones that adhere to the more practical 
pragmatic view have nothing to show for their policy, the more 
extreme view tends to win out.
    So we need to be proactive and make certain that over the 
next months and whatever the period of time is that the 
pragmatic politicians on the Palestinian side get a victory or 
two. They need to run their 30-second commercials that say a 
nonviolent policy gained something.
    Mr. Cicilline. Thank you. I yield back.
    Mr. Smith. The Chair recognizes the gentleman from 
Pennsylvania, Brian Fitzpatrick.
    Mr. Fitzpatrick. Thank you, Mr. Chairman, gentlemen.
    The PLO mission in Belgium and in Washington, DC, first if 
you could describe for us how that plays into the Palestinian's 
strategy for diplomatic engagement.
    Second, if you could talk to us about any risks that may be 
associated with a potential move of the Embassy to Jerusalem.
    Mr. Schanzer. Sure. Thank you, Congressman Fitzpatrick.
    As you probably know, the PLO has missions around the 
world. They are not Palestinian Authority. They are PLO. And 
the distinction is often very difficult for people to 
understand that you actually have the PA, which is a government 
structure that has been set up to run the daily operations of 
the West Bank and previously the Gaza Strip before it fell to 
Hamas.
    Then you have the PLO, which is supposed to be the sole 
representative of the Palestinian people in negotiations. They 
have also been recognized by the U.N. General Assembly as what 
is now known as the Palestine. And so they have this quasi 
diplomatic representation around the world and that is how they 
effective lobby for their quest for statehood. The campaign is 
known as Palestine 194, the quest to become the 194th country 
at the U.N.
    And so the PLO in Brussels, the PLO in Washington, this is 
what they do every day. They also happen to try to change 
public opinion on Israel. They try to influence public opinion 
on the status of possible peace talks. But really the ultimate 
goal is to try to get this elevated at the Security Council to 
a full state and that is what we see going on right now in 
Belgium and in Washington. And the assumption right now is that 
they are also engaging on some level in some of the pro-BDS 
activity, which I think is troubling.
    As for the move to Jerusalem, I was actually just in Israel 
last week, speaking to some officials in Israel. I found it 
actually very striking that they said that a lot of the news 
that was circulating was not coming through Jerusalem but it 
was really originating from people not close to Netanyahu's 
office or to the foreign ministry so that it is either coming 
from people here or people who say that they know what is going 
on in Israel. So there has been a lot of misinformation.
    My personal perspective on this is that the move would be 
welcomed by Israel and I think it should be welcomed by the 
United States. I think it is a question of sequencing. It is a 
question of engaging with our allies, speaking to the 
Jordanians, as we just did, working with some of the Arab 
states, making sure that they understand exactly what is going 
to go on and what they might be able to get as part of a 
package. It is important to work with the Israelis on security 
to make sure that they understand what could possibly happen as 
a result of this move.
    And then there was a terrific piece by former Ambassador 
Shapiro in Foreign Affairs just the other day that talks about 
a lot of logistics that I think we need to think about as well, 
in terms of building the Embassy, the cost, the security. There 
is a lot that needs to go into this and I would, personally, 
just like to see maybe a couple of weeks, maybe a couple of 
months of planning for this before announcements are made.
    Mr. Fitzpatrick. And is it your position that Jerusalem 
will be safer than Tel Aviv, as far as locations go?
    Mr. Schanzer. I think that, obviously, it will be deemed as 
controversial by the Palestinians but I think that our 
diplomatic security at the State Department, they know what 
they are doing. I am sure at the end of the day if they do 
build a new Embassy, it would have to be one of the safer 
installations in the world and I am sure that it would meet the 
specs that the diplomatic security would require.
    Mr. Fitzpatrick. Thank you. I yield back.
    Mr. Smith. Thank you very much.
    I would like to yield to Bradley Schneider, the gentleman 
from Illinois.
    Mr. Schneider. Thank you, Mr. Chairman. And I want to thank 
the witnesses, first and foremost, for the work you all do 
across the years every single day but, in particular, today, 
for your insightful and informative testimony.
    I want to focus mostly on UNRWA but I also want to make a 
quick remark or comment on the remarks you have all made about 
Resolution 2334 and thank you for those remarks. I think I 
recall my first time in Israel at the Western Wall in 1983, the 
holiest site to all Jews, and thinking that 17 years earlier I 
would not have been able to stand in that place. To see the 
United Nations say that this holy site to Jews everywhere 
around the world is illegally occupied territory, again, just 
thank you for your remarks.
    In Mr. Hook's remarks, you made an interesting comment that 
I want to expand, as you talk about UNRWA, is the need to 
maintain flexibility. And as I think about that, there is a 
need or opportunities, often, to create flexibility.
    And I will turn to you, Dr. Schanzer, first. Are there ways 
to create flexibility? I think your remarks about UNRWA and the 
need to phase it out but the need to also make sure that you 
are taking care of on the ground requirements. How do we go to 
a place where we aren't maintaining and creating refugees so 
many years after UNRWA was established?
    Mr. Schanzer. Thank you, Congressman Schneider.
    It is a complicated issue. And I can tell you that the 
Israeli perspective is don't do anything too rash. They 
actually appreciate some of what UNRWA does because it takes 
some of the burden off of them in dealing, for example, in 
making sure that people are taken care of in the West Bank.
    I think first of all looking at the numbers, looking at the 
actual figures cited by the U.N., I think it is incredibly 
important when you recognize the grandchildren, great 
grandchildren, et cetera of existing refugees, it becomes a 
political issue and a hot button issue. The idea that somehow 
Israel is saddled with the responsibility of 5 million refugees 
as opposed to 50,000 makes the refugee problem unsolvable. That 
is a first principle that I think must be addressed; and the 
fact that UNRWA was able to engage in this sort of fishy 
accounting in the first place is shocking to me, and the fact 
that we have kicked the can down the road for so many years on 
this is shocking to me.
    Mr. Schneider. If I can just add, if you think about the 
historical creation, or what moment in history established 
these refugees, they weren't the only refugees at the time. 
There were Jewish refugees at the same time and of comparable 
numbers. It is time, I think, to address the issue and move 
forward.
    Mr. Schanzer. That is right. And I think on top of that I 
think the idea that you have a dedicated agency only to this 
population of refugees is also very surprising.
    In today's day and age there are all these huge refugee 
problems. We see the one in Syria, for example. Actually UNRWA, 
I mean this is a little-discussed topic, but the fact that 
UNRWA has designated some of these Palestinians in Syria as 
refugees, makes their treatment more difficult as they leave 
Syria, as they look for help in other places. Because they can 
only be treated officially through UNRWA, it makes the 
challenges that much greater.
    So I think we need to address some of the political 
challenges associated with this but most importantly, I think 
that if you are going to phase out UNRWA, and I certainly 
recommend over time that this be done that way, that we 
continue to make sure that destitute Palestinians, Palestinians 
who are in need, are still getting the services that they 
require. So maybe that is through the U.N. itself through the 
official refugee channels, maybe it is done through the 
Palestinian Authority. This might be an excellent way of 
empowering the PA in a way that might be consistent with what 
the Israelis are looking at. Ultimately, the perpetuation of 
the refugee problem is my major concern with UNRWA.
    Mr. Schneider. Mr. Neuer--I will come to you in a second, 
Mr. Wexler--from your perspective at U.N. Watch in Geneva, do 
you see any specific pathway to addressing the issue of UNRWA 
and finding something to move us forward on this issue?
    Mr. Neuer. I think we need to see something that we haven't 
seen before, which is serious demands from the major donors. 
The U.K. is giving $100 million to UNRWA. The European Union is 
giving $130 million to UNRWA. The United States, over $350 
million to UNRWA. And in recent years, we have not seen minimal 
demands for accountability, as I said, to demand that racist 
teachers who post pictures of Hitler should not be standing in 
front of a classroom. As I mentioned, it is not something we 
would tolerate in our own school systems and there is no reason 
that we deny Palestinian children the right to have racist-free 
educations.
    So we need to begin by demanding accountability. I think we 
could achieve reform, they are dependent on your money.
    Mr. Schneider. Mr. Wexler or Mr. Hook.
    Mr. Hook. Do you mind if I just mention one thing on UNRWA? 
When it was created in 1949, it was designed to address short-
term needs and it is now 67 years later and the United States 
has spent over $5 billion on this.
    One of the things which I think, and Brett Schaefer has 
talked about this at Heritage, is the need to look at this much 
greater competency and efficiencies in the U.N. High Commission 
for Refugees Office.
    So if you look at the breakdown, the ratio for UNHCR is one 
staffer per 5,000 refugees. For UNRWA, it is one staffer for 
182 refugees. Apart from whether UNRWA is perpetuating a status 
quo that does more harm than good, I think we need to look at 
the efficiencies of starting to, over time, requiring UNRWA to 
complete its mission, but then also to figure out how we can 
transition some of these things over to UNHCR.
    Mr. Schneider. If I may request time for Mr. Wexler to 
answer.
    Mr. Smith. Thank you very much.
    Mr. Schneider. May I request time for Mr. Wexler to answer 
the question?
    Mr. Smith. Oh, sure. Absolutely.
    Mr. Schneider. Thank you.
    Mr. Wexler. Thank you. We need to assist the Palestinians 
and the Arab world with respect to their stubborn view of the 
right of return to move to a more helpful position. And in this 
regard, President Abbas deserves some credit. Not too long ago, 
President Abbas was born in the Israeli city of Safed, which is 
one of the four most important Jewish cities in history. 
President Abbas was asked publicly if he intends to return to 
his place of birth, Safed, in Israel. He said yes, but then he 
said, as a visitor. That was an incredible, incredible sign to 
his people that the Palestinian people will enjoy a right of 
return but they will enjoy it to the new state of Palestine.
    The deal is, of course, a two-state outcome, one Jewish, 
one Arab. The deal isn't one and a half Arab States and half a 
Jewish State. But we have got to do things that allow the 
Palestinians with face-saving measure to move away from this 
decades, generations-long stubborn position.
    Mr. Schneider. Thank you and I yield my time.
    Mr. Smith. Thank you very much.
    I would like to yield to the gentleman from Florida, Brian 
Mast and before doing so, again, thank him for his 
distinguished service in Afghanistan in Kandahar. As I think my 
colleagues already know, he was seriously wounded. He was an 
explosive ordnance disposal expert, lost both of his legs and a 
finger, and obviously knows the price of freedom and is a true 
hero and it is an honor to yield to him.
    Mr. Mast. Thank you, sir, I appreciate that. Don't forget 
that finger, it is an important part of it.
    I appreciate you all giving us your time today.
    I wanted to start with you, Mr. Wexler. Every time you turn 
on your microphone, you speak with passion about the issue and 
I absolutely appreciate that. You asked that we put these 
conversations about defunding the U.N. in historical context of 
the Presidents of past. In that same breath, you also mentioned 
that Israeli behavior has not been helpful. And just now you 
made the comment about allowing Palestinians to save face. I 
was just looking for a short answer. Can you tell me has there 
been any not helpful behavior that has warranted the behavior 
seen, rocket attacks, stabbings, vehicular manslaughter, 
anything?
    Mr. Wexler. All of it, atrocious, horrible. Palestinians 
and their leadership have defrauded their own people for 
decades, for generations. The flip side, there is Israeli 
behavior that is quite favorable. People forget that Prime 
Minister Netanyahu made a speech at Bar-Ilan University and 
advanced the cause of a two-state solution. He then implemented 
a settlement freeze under the watch of Senator Mitchell and his 
effort, the first time an Israeli Prime Minister adopted a 
settlement freeze to that degree.
    This is a mixed bag. There are good and very positive 
actions by the Israeli Government and most of all, Israel is a 
miracle state. It is an extraordinary achievement of democracy, 
human rights, respect for minorities. They have a Supreme Court 
where there are Arab members on the Supreme Court. The Israeli 
forces do what few forces in the world do, Americans do, they 
go and help the enemy obtain healthcare coverage. I believe 
Israel just allowed in as refugees, Syrian children that are 
the victims of what is happening in Syria.
    Israel is a miracle country. They have everything to be 
proud of.
    All I am suggesting is in the context of analyzing this 
resolution, we recognize both the pros and the cons. In the 
case of Israel, it is 100 to one, 1,000 to one, the pros versus 
the cons.
    Mr. Mast. Very good. I am glad you answered that with 
passion again.
    You know I open this up really to anybody that wants to 
take the time to answer it. I can say I have learned personally 
in my life leadership absolutely matters. You know when I had 
leaders in the military that displayed courage, valor, 
selflessness, moral resolve. They drew the exact same thing out 
of me, out of every person to our left and right. Most of us 
can certainly probably agree, in this day and age, that that is 
something that matters.
    You mentioned, Dr. Schanzer, that the leader of the PA is 
in their 12th year of a 4-year term. It is a regime that really 
has presided year over year over terror. Could you point to any 
specific leaders that you would want to see line up to be the 
next leader, people that we should be looking at to line up 
there? Do you see a vessel to move there more quickly or is 
this simply wait out? As you talked about, a two pack a day 
smoker, do we just wait this out? What is your take on that?
    Mr. Schanzer. Unfortunately, it is a bit of a waiting game. 
Abbas has really purged a lot of that next level leadership.
    There are people that I think we can still look to. Salam 
Fayyad, for example, the former Prime Minister who Mr. Wexler 
mentioned is an excellent leader, someone who is really 
committed to transparency, fighting corruption against 
terrorism. He is still around, he has been marginalized but he 
is still around.
    I have concerns about some of the other PLO leadership that 
I think are lining up and they believe that they may be able to 
succeed Abbas. Thinking about Saeb Erekat, the very vitriolic 
spokesperson for the PLO, that would be, I think, the exact 
wrong person to see step into that role.
    I think we need to be trying to shape this right now and 
perhaps through our diplomatic presence in the Middle East try 
to identify perhaps some of the leaders who may come up and at 
least ensure that there is a debate going on properly within 
the Palestinian political spectrum.
    Mr. Mast. Very good. Is there anybody else that would like 
to offer up any--please, by all means.
    Mr. Wexler. I will be quick. Ideally, the answer to your 
question would be the Palestinian people should decide in a 
free and democratically held election. Ideally, that is what 
should happen. Of course, the last time that happened, one of 
the few times it has happened in the context of the 
Palestinians, Hamas prevailed.
    So if we are going to advance democratic reform and hope 
for it, genuinely, as we should, we have also got to empower 
those that advance a more moderate agenda to be victorious at 
the ballot box. Now, that is not our obligation. That is not 
our responsibility but we need to be smart enough to understand 
that in the current environment, it is the extremists that tend 
to take advantage of the situation when there is no diplomatic 
horizon that seems realistic to them, to the Palestinian people 
that is.
    Mr. Mast. Very good. Thank you again for your comments.
    Mr. Hook. Could I just make one, on your point about 
leadership at the U.N., if I may, Mr. Chairman?
    I think that American leadership or--your options are kind 
of American leadership or back foot diplomacy. And I think that 
when you work from your back foot, you create this permissive 
environment that causes some of the U.N. funds and programs to 
behave badly. When we are always leading in these various 
bodies, especially in the U.N. Security Council where we set 
the agenda and we make very clear that there will be 
consequences in the bilateral relationship for people who try 
to hijack the agenda. That is how you prevent a lot of things 
coming into the Security Council that have no business being 
there. But that requires a perm rep, and a team, and an 
administration that fully supports that and a President that 
believes in it.
    Mr. Smith. Thank you very much.
    I would like to now yield to the gentleman from New York, 
Mr. Suozzi.
    Mr. Suozzi. I want to thank the witnesses. They are really 
brilliant people and really great insights you have given 
today.
    The two-state solution was first explained to me by Shimon 
Peres when I visited Israel back in 2002, during the Second 
Intifada after the massacre in Hebron. And I am a very strong 
supporter of the two-state solution.
    In my maiden speech on the House floor, I supported 
Resolution 11 and was one of the original co-sponsors of this 
bipartisan objection to the U.S. abstention from U.N. Security 
Resolution 2334 because I believe that the abstention pushes us 
further away from a two-state solution.
    So today is really about the U.N. and I am going to just 
take some of your--and I came in late so I don't have quotes 
from each of you--but I have a very strong agreement that the 
U.N. as a systemic unjust bias against Israel, as was stated by 
one of you earlier. I believe, however, that the U.N. would be 
much more--and these committees would be much more hostile 
bodies without our presence on them and I have the hope that 
the U.N. will live up to its intentions of its founding 
nations.
    I don't like the idea of conditioning money. I don't like 
the idea of withdrawing money from the U.N. So I want to ask 
each of you, I am just going to ask you in no more than 45 
seconds apiece to give me what you think the one best way to 
reform the U.N., which we all agree has some serious problems 
as far as efficiency, as far as its bias against Israel, all 
these different areas. If you had one thing that you could pick 
as a reform, other than withdrawing money or conditioning 
money, what would be the one thing that you would suggest that 
we could do to try and reform the U.N.?
    So, Mr. Neuer.
    Mr. Neuer. I think some things are beyond our capacity. 
There are U.N. entities that are controlled by member states 
and we have no leverage over some of those member states when 
they act in unison.
    But it was mentioned before the role of the Secretary-
General. When the U.N. Human Rights Council had Richard Falk as 
its Special Rapporteur in Palestine, a notorious 9/11 
conspiracy theory supporter, and when he supported the 9/11 
conspiracy theory, Ban Ki-moon condemned him openly. That 
completely discredited him.
    So the U.S. was not able to remove Richard Falk but by 
getting Ban Ki-moon to condemn him and Ban Ki-moon's office 
acknowledged that it was because he was coming to Congress that 
week that he felt compelled to make that statement. And Richard 
Falk, who retired a couple of years ago, continues to lament 
the fact that his own boss condemned him. So I think it is an 
example of how there are some things that the U.S. cannot stop 
but they can remedy, they can limit, by getting the Secretary-
General, we have a new one, to speak out. I think that is 
something that the U.S. should insist that the new Secretary-
General does on a regular basis.
    Mr. Suozzi. So keeping that relationship and enhancing that 
relationship could actually be effective in helping to get him 
to do what we want.
    So Mr. Hook, what are you thinking?
    Mr. Hook. Well, I would say two things. The U.N. needs a 
more equitable allocation of operating costs. It is unhealthy 
for the U.N. to rely on one donor to the extent that it does.
    I think we need to be, as part of our bilateral agenda with 
our allies, and even with China and Russia, they have to pay 
more. There needs to be a better allocation of costs and we can 
encourage that. The U.N. is never going to require them. We are 
not going to be able to change the funding formula in the 
General Assembly. So that is going to require us to be making 
it a priority with other nations to voluntarily spend more 
money at the U.N. so that we are not spending so much of it.
    The other thing that I think----
    Mr. Suozzi. You are not giving me my answer, though. So you 
are saying you want to reduce the money that we spend?
    Mr. Hook. No, no, no. What I am saying is other people need 
to pay more of the fair share.
    Mr. Suozzi. Oh, so your concern is the percentage?
    Mr. Hook. Yes.
    Mr. Suozzi. Okay.
    Mr. Hook. And then the other thing I think we can look at 
is, you know we spend $2.5 billion on the peacekeeping missions 
and we have supported Japan and India as permanent members non-
veto for the council. I think we should require that any new 
permanent member should be required to pay a substantial share 
of the U.N. peacekeeping budget as a condition to become 
permanent members.
    Mr. Suozzi. So you would be supportive of the idea of the 
U.S. keeping its contributions the way it is but increasing 
others so that our percentage was less and encouraging any new 
members to put up money, thereby also helping us with our 
percentage.
    Mr. Hook. I like a good calibration of like cost-benefit 
generally. I don't like kind of a one size fits all. If there 
is a program that--the U.N., 70 percent of its budget is 
personnel. That seems to be an area where we can reduce U.N. 
costs. And by doing that, we get to reduce U.S. costs because 
we are the biggest funder.
    Mr. Suozzi. Okay. I appreciate that. I am a CPA, just so 
you know. And I was a mayor and a county executive.
    Go ahead.
    Mr. Schanzer. With respect to Mr. Hook, I actually think 
that right now the fact that we contribute the amount of money 
that we do, gives us leverage and actually gives us more of a 
say in how the U.N. should reform. And so I think we ought to 
take advantage of that while it is going on.
    Mr. Suozzi. Yes.
    Mr. Schanzer. I think that I mentioned a few things in my 
testimony----
    Mr. Suozzi. I saw those four things. You only get to pick 
one for now.
    Mr. Schanzer. Right. So well those four are great. But 
look, I think big picture you need like a consulting firm to 
get in there and you need to get in there and root out 
corruption. You need to see where waste is. You need to see 
where redundancy is. You want to see where they are effective 
and where they are not. And I think if you do that, you would 
probably cut out 30-40 percent of the U.N.'s budget. You would 
probably make a lot of people very unhappy but if you ran the 
U.N. like a business----
    Mr. Suozzi. We have never run it like a business. It seems 
you won't run the U.S. Government like a business because there 
is no profit motive and a whole lot of other things but you are 
suggesting if we could get some smart people to actually come 
from the outside and----
    Mr. Schanzer. From the outside.
    Mr. Suozzi [continuing]. Be more efficient.
    Mr. Schanzer. Insiders are deeply corrupt and I am very 
skeptical. From the outside, you might be able to make some 
change.
    Mr. Suozzi. How would we go about getting that done?
    Mr. Schanzer. Well, that is the problem. I mean the U.N. 
would have to agree to that.
    Mr. Suozzi. Yes, but--okay.
    Mr. Wexler?
    Mr. Wexler. There is a new sheriff in town, President 
Trump, and we have Republican leadership of the House and the 
Senate that is critical, to say the least, of the United 
Nations. I would make it clear that America essentially has two 
red lines in terms particularly as it relates to this issue, 
the Palestinian-Israeli conflict. Number one, that the United 
States will not tolerate any U.N. action behavior that advances 
BDS because at its core, it is anti-Semitic.
    Also, I would make it clear that rather than a negative 
perspective that the U.N. often has had in terms of its 
dealings with Israel that we incorporate, in effect, what Prime 
Minister Netanyahu has argued, that the Israeli-Palestinian 
conflict is a conflict about historical narratives. He is 
right, and the U.N. needs to reflect the fact that countries in 
the world need to stop delegitimizing Israel and they need to 
recognize Israel's right to exist.
    If I were President Trump, I would speak with the new 
Secretary-General and basically tell him I am all with you, I 
am with you 110 percent. I give you 2 years, 2 years to change 
the mentality of the U.N. and if you can do it in a 
demonstrated way, I am your best friend forever and I will be 
behind you in that manner. But if you can't, then there will be 
consequences and I don't think you need to lay out those 
consequences and I don't think we need to get that far. And I 
think we should give the new Secretary-General, who is in fact 
very sensitive to these issues, and give our new U.N. 
Ambassador, who also needs time to maneuver the scenario, to 
improve things.
    Mr. Suozzi. Okay, thank you very much. I appreciate that.
    Thank you.
    Mr. Smith. The Chair recognizes the gentleman from North 
Carolina, Mark Meadows.
    Mr. Meadows. Thank you, Mr. Chairman. Thank each of you 
for--some of you for being back with us. It is good to see you 
again. We will disagree sometimes on the strategy and tactic, 
Mr. Wexler, but I certainly appreciate your candor and you 
willingness not only to have served in this body but certainly 
to continue to serve as an expert witness here today.
    I am not as optimistic as the gentleman from New York in 
terms of reform ever happening in the U.N. without a leverage 
point. Having been a delegate to the U.N., having seen up close 
and personal, having also seen that in the previous 
administration, which had a reformer in there who truly wanted 
reform, there is no way that you are going to reform something 
where you have the very member states themselves participating 
in a jobs program that actually gives jobs to those who are 
well-connected by the very member states. They are just not 
going to do it. They have control over the 70 percent of the 
budget that actually employs many of the people that are 
associated with the very people making the decision. Would you 
agree with that? Softball.
    Mr. Wexler. Yes. Yes, I would agree with that.
    Mr. Meadows. So if, indeed, we can't reform from within 
because there is an incentive among the member states, the 
pressure that you just talked about coming from President Trump 
about really needing reform actually has to take on some kind 
of conduit for that reform, other than a resolution from 
Congress that has no real effect.
    Now do you think that the resolution that we passed is 
setting all kinds of people at the U.N.? Are they running 
around saying oh, my gosh, we had better change it because 
Members of Congress put forth a resolution?
    Maybe just answer yes or no. Are they running around based 
on that resolution?
    Mr. Wexler. I apparently have more confidence in President 
Trump than you may have.
    Mr. Meadows. Oh, no, no, no, no. I can assure you that 
that's probably not the case. But in doing that, having someone 
that is here--we have got to do more than resolutions.
    I am tired of every single time we have an anti-U.S., anti-
Israel U.N. consistently voting against us when we are the main 
funder, percentage-wise, of any country. So the message for the 
U.N., if they are looking in on this hearing today, is is that 
you suggest 2 years, I suggest 12 months, the time is now for 
reform. We have introduced a Bill 802 that actually looks at 
taking some of the U.S. foreign aid dollars away from Senegal 
because they were a sponsor of the most recent resolution. If 
they are going to attack our friend and ally Israel, this bill 
actually takes the money and just moves it over to two pro-
Israel African countries. It doesn't even cut money. It just 
says we are going to move it over.
    It is time that our friends are recognized as our friends 
and our enemies are recognized as our enemies. Wouldn't you 
agree with that?
    Mr. Wexler. Sure.
    Mr. Meadows. All right. So, if that is the case----
    Mr. Wexler. May I add something, though?
    Mr. Meadows. Yes, you may. Since I was doing more of the 
talking, you go ahead.
    Mr. Wexler. I have been talking all morning.
    Mr. Meadows. I know. And I like it. That is all right. Go 
ahead.
    Mr. Wexler. You brought out, I think, an important point in 
the first part of your remark, which is this is about the 
member states.
    Mr. Meadows. Right.
    Mr. Wexler. The truth is the U.N. is just a venue.
    Mr. Meadows. Right.
    Mr. Wexler. It is the actions of the member states that 
need to be changed. And you are right, a resolution by this 
committee or this Congress, as well-intentioned, as important 
as it is, is not going to change, most likely, the actions of 
the member states. But a President of the United States who is 
engaged on these issues and an effective U.N. Ambassador who 
pursues this line of engagement on a continual basis can make a 
big difference and it needs to be tied into the overall 
strategy of the country on foreign policy.
    But may I offer one word of caution? And I hesitate to say 
this. I am a Zionist to the core. One of the reasons I am so 
patriotic about this country is because I am a Jewish American.
    Mr. Meadows. Right.
    Mr. Wexler. At no time in history of Jewish Americans or 
Jews had the opportunity to live as well as we have as we have 
in this country. It gives me pause when an institution as 
important as the U.N. and a country as immensely important as 
the United States begins to offer as an absolute condition our 
relations, examples regarding only Israel. This world is huge. 
There are so many interests. The worst thing for the Jewish 
people----
    Mr. Meadows. I have got you. Now, we could get into a very 
wide and expansive list of areas for reform that have nothing 
to do with Israel and I will be glad to have another hearing on 
that when we look at. You mentioned peacekeeping, I mean once 
we have a peacekeeper in place, they never go away. You know 
when we really look at the U.N., we put up peacekeeping 
missions all over and we have got peacekeepers in places that 
are not appropriated properly. And I support that.
    And I guess what you are saying is you have got a fiscal 
conservative Member of Congress who loves foreign policy, who 
understands it, who is willing to invest in it and yet, at the 
same time, I am tired of allocating funds and getting the same 
results over, and over, and over again. Does that make sense?
    So your point is well taken. We won't be myopic in our 
focus here.
    Mr. Wexler. Thank you.
    Mr. Meadows. The chairman is being generous with his time. 
So let me come back the other way.
    There have been credible reports that the U.S. participated 
in this particular resolution in the vote. And by credible I 
mean some unimpeachable in terms of our willingness to allow 
this particular U.N. resolution to happen.
    Doctor, are you aware of those and what kind of message 
does that send if, indeed, the very ally of Israel is allowing 
that and participating in that?
    Mr. Schanzer. I am obviously aware there was quite a bit of 
controversy about that at the time. The reports were several. 
There was a report that came out in an Egyptian newspaper 
alleging that the Palestinians were sitting down with the 
United States under Egyptian auspices. And there may have been 
actually even more than one meeting where this took place where 
they were guiding the language, guiding the process from the 
White House. There were indications that there could have been 
pressure on Ukraine to vote in favor of this.
    And the Israelis have indicated that they are certain that 
there was U.S. involvement. And I think at this point there is 
probably not a whole lot of debate over whether the White House 
was involved. I think the inclination of the White House was 
to, as they say, lead from behind to let other people take 
charge of the process and that they could inform it from the 
sidelines.
    I think regardless of exactly how it played out, the end 
result was the same. The abstention did the damage. They could 
have voted for it. They could have abstained, it doesn't 
matter. The United States lowered the shield, as we would say. 
They lowered the shield at the U.N. and allowed for this 
resolution to go through. The resolution, I think was very 
harmful and it will take some time to undo that damage.
    Mr. Meadows. Well, thank you, Doctor. We are going raise 
back that shield and I appreciate the chairman's indulgence.
    Mr. Smith. Thank you very, very much for your 
participation.
    Mr. Deutch and I are just going to ask a few follow-up 
questions and then we will conclude the hearing.
    Let me just first ask on UNESCO, the arrearage now is 
approximately $500 million and, obviously, UNESCO is unhinged. 
It is moving even more aggressively in promoting anti-Semitic 
policies. And I am wondering if you could tell us what your 
recommendation would be to the Congress and to the President on 
what we do next with UNESCO.
    Secondly, Dr. Schanzer, you mentioned a performance 
enhancement plan in answer to a question earlier. I have been 
in Congress 37 years and we have talked about U.N. reform going 
back to Nancy Kassebaum. Attorney General Dick Thornburgh sat 
right where you are sitting right now in 1993 when Tom Lantos, 
and I, and Doug Bereuter and others asked a series of important 
questions. The former U.S. Attorney General at the time was the 
Under-Secretary for Management at the U.N. made sweeping 
reforms in realm of Inspectors General that would be 
independent and whistleblower protections. As I said in my 
opening remarks, we continue to labor against whistleblowers 
being retaliated against at the U.N. and IGs are far from a 
standard that any democracy worth its salt would say is an IG. 
So the U.N. has failed miserably, in my opinion, in that 
regard.
    So your thoughts on, as Mr. Meadows said, patience has run 
out. We need to get this right. And the Human Rights Council, 
as I said in my earlier questioning, what a missed opportunity 
to have an organization to speak truth to power, especially to 
dictatorships and it just fumbles the ball and goes after 
Israel with agenda item 7.
    So, those couple of questions and then I will yield to my 
friend, Mr. Deutch.
    Mr. Neuer. Thank you, Chairman Smith. With UNESCO I think 
it is undeniable that the leverage which the U.S. Government 
gained by cutting funds to UNESCO in regard to other U.N. 
bodies that the Palestinian would have joined, were it not for 
the fear of triggering those kinds of dramatic consequences in 
Paris where one-fifth of the staff had to be cut, many nations 
were angry at the Palestinians for triggering that, I think 
that played a singular role in blocking Palestinian efforts to 
politicize the World----
    Mr. Smith. Will the gentleman yield just briefly and then 
continue? I get what Mr. Wexler said about member states but 
many of the specialized agencies, and that is an assessment 
contribution once you are a part of it, but so many of the 
other agencies are voluntary contributions and I think your 
point is a very important one to underscore that when we send a 
message and we mean it with our funding and our actions, it 
does have a laudatory impact perhaps on others. But we have got 
to work on member states, no doubt, Mr. Wexler, but these 
specialized agencies can't be moonlighting as they do so often, 
against Israel.
    So please continue.
    Mr. Neuer. Thank you. I believe the U.S. should consult 
with its allies, including Israel and other close allies about 
the value of its continued membership in UNESCO. The United 
States was not a member for some 25 years. I am not aware of 
any significant loss to humanity as a result of that absence. 
Actually a senior official of the Obama administration told me 
that an agency like the World Health Organization, which 
actually does important work, would matter to have the U.S. 
there and if it cut its funds; whereas, UNESCO, she did not 
think that that was actually a consequential body.
    I do want to make one point about the Human Rights Council. 
We, U.N. Watch, are the strongest critic of the Human Rights 
Council. I have readily spent 13 years there. I work across the 
street. And so I know its dangers very well. I would say that 
in this instance the Human Rights Council is not going away. 
And from 2006 to 2009, the U.S. left, although it did signal 
its displeasure with the body and denied it a certain form of 
legitimacy, it continued to do its negative work. It created 
the Goldstone Report. It feeds into the ICC. I actually believe 
that we should have a Moynihan. I would like to have Patrick 
Moynihan type of figure who would come, not like Ambassador 
Power cited Moynihan when she came before the Congress but 
didn't always act like him, but to have someone who would come 
to the Human Rights Council, pick up the phone to the High 
Commissioner and say if you do X, Y or Z, you are in a lot of 
trouble, someone who would speak out for human rights. I don't 
think that kind of presence would give one iota of legitimacy. 
And the Obama administration did become a cheerleader of the 
council. That was wrong but someone who would come to the 
council and take the floor as Moynihan did in the Zionism is 
racism debate would actually be a contribution to human rights 
and to combating anti-Israel bias.
    So I would like to see the new administration send an 
Ambassador of that nature.
    Thank you.
    Mr. Smith. Anybody else?
    Mr. Schanzer. I am going to leave UNESCO to my colleagues. 
I don't want to call myself an expert on that, although I would 
say that UNESCO knew exactly what was going to happen once it 
allowed itself to become politicized through the so-called 
Palestine 194 campaign. I think it is a cautionary tale that as 
soon as these agencies become part of this broader campaign, 
they are used for purposes that I think extend well beyond what 
they are designed to do. That is exactly what happened with 
UNESCO. I am fearful that it could happen with others as well. 
I think we should be mindful for that. We should be watching 
out for that to the extent that that is possible.
    As for the performance enhancement plan that you mentioned, 
I don't have specifics. I mean I probably should sit down for a 
few weeks and come up with a study on it. I think that, as I 
mentioned before, the fact that we have already put the U.N. on 
notice, I think you are already seeing a shift in tone. I think 
we ought to double down on that. I think we ought to continue 
to press the U.N., letting them know that funding is not 
guaranteed, letting them know that reform is necessary and 
start to really lay out specifics where we want to see some of 
that reform.
    I mentioned four areas where I think we could probably 
enact reform. I am sure my colleagues here can probably come up 
with another dozen but this ought to be part of the plan. And 
so it is not just cutting. Right? When you say look, we need 
you to do the following things and, if you don't within a 
certain amount of time, then we are going to start to talk 
about cutting. In other words, you sequence this. You can 
message it a little bit in a way that lets the U.N. know that 
this is not a free ride. I think that is incredibly important. 
You know that and I think getting in there and actually rooting 
out corruption because I think there is a huge amount of waste 
that happens year after year.
    I remember the oil for food scandal. I think that was 
probably just the tip of the iceberg.
    Mr. Wexler. I would associate myself with these remarks. I 
think they are excellent. I think it is incredibly important, 
it is worth repeating, what the new Secretary-General did this 
week, which is for the world to hear he said that the Jewish 
connection to the temple in Jerusalem is undeniable. That is a 
complete condemnation of the completely irrational, bigoted, 
discriminatory hatred that has come from certain parts of the 
U.N. system.
    So in an overall sense now, you all have a choice. You can 
empower that man who seems instinctively and substantively to 
share most if not all of your concerns or you can take the 
knees out from underneath him. That is your choice as 
policymakers. I would say empower him and also what was 
suggested before, President Trump has got to incorporate this 
strategy into his trade deals when he is negotiating. When the 
Palestinians, after the U.N. Secretary-General said what he 
said and they criticized the U.N. Secretary-General, there 
needs to be a strong shot back that the new sheriff in town is 
not going to take that irrational type of responses anymore. 
Don't expect to get money if you are going to deny the Jewish 
connection to Jerusalem because it doesn't serve your cause.
    There also has to be positive reinforcement as well. If you 
are going to do some good things, there has got to be some 
reward for it as well. And we have got to stand for those 
positive rewarding things, which means stand strongly for a 
two-state outcome, a two-state negotiated outcome.
    We can't be seen as being allied with the unfortunate 
statements most recently by Prime Minister Netanyahu when he 
talked about a Palestinian State minus. Well if you are talking 
about a Palestinian State minus, how are you going to encourage 
the Palestinians to do the right thing? That is tough.
    Mr. Neuer. Yes, we transcribed the interview that Mr. 
Wexler just referred to, where the Secretary-General did make 
positive statements about fighting anti-Semitism and about the 
temple. We can all agree that there was a Jewish temple that 
Romans destroyed. I would not overstate, however, what he said. 
It was a passing reference in response to a question by Israel 
radio's Benny Avni. In that same interview, he was asked 
specifically on the point that you, Chairman Smith, mentioned 
about the 3D test. Mr. Avni asked the Secretary-General would 
you acknowledge, as many Jews do, that anti-Semitism today 
often adopts the cloak of singling out Israel for differential 
and discriminatory treatment, demonizing Israel. And he refused 
to accept any notion that anti-Semitism has any connection with 
a double standard with Israel.
    So, I do agree with Mr. Wexler that we should encourage 
positive statements. I would not agree that it was a complete 
condemnation of the UNESCO statement. Actually, Irina Bokova, 
the director of UNESCO, did make very positive statements that 
were overt and direct and were, I would say a complete 
condemnation. His were not. And there were some statements he 
made about the discriminatory treatment of Israel where he 
didn't acknowledge the nature of the bias. So yes, reinforce 
but don't give a free pass. Continue to hold him and other U.N. 
officials accountable.
    What Mr. Guterres and what Ms. Bokova will say can be very 
significant in defanging resolutions that we can't otherwise 
stop.
    Mr. Smith. Mr. Deutch.
    Mr. Deutch. Thank you. And thanks again to the witnesses. 
This is a really helpful discussion.
    Representative Wexler, I just want to go back to something 
you say in your prepared comments. We didn't really get a 
chance to talk about the rest of the hearing and that is the 
positive reaction from the Arab States to the principles of two 
states for two peoples.
    Israel obviously finds itself sharing many of the same 
security concerns as its Arab neighbors and there is an 
opportunity for greater involvement by the Arab States in 
helping move the peace process forward and I would like to hear 
your thoughts on what those opportunities are. But I would also 
like to hear your thoughts on the difficulties in continuing 
those discussions with those Arab States, if I could turn--
there has been a lot of discussion about the prior 
administration. If I could turn to the current administration 
for a second. In light of an executive order that slams the 
door on all refugees and that bans every person from seven 
Muslim countries from coming into the United States, and then 
as Senator McCain and Senator Graham have said, helps terrorist 
recruitment, how do we do both of these things? How do we 
continue to work to develop what might be a positive 
contribution from these Arab States at the same time that we 
are working an world where we have made a very powerful and 
dramatic statement about how we may view that part of the 
world, certainly those seven Muslim countries?
    Mr. Wexler. That is a huge question. It is undeniable that 
the dynamic in the region has changed for the better in the 
sense that the Sunni Arab States find themselves with a 
confluence of interest with Israel that didn't exist even a few 
years ago. And that is played out with intensely close security 
relations, informal economic relations, and just generally a 
whole sense of collaboration and cooperation.
    But there is a glass ceiling here. Prime Minister Netanyahu 
and the Israelis rightfully point out that if one thing the 
Arab Spring should have taught us is that the Israeli-
Palestinian conflict is not central to the problems in the Arab 
world. We could resolve the Israeli-Palestinian conflict 
tomorrow, Syria will still be in the mess that it is in. Yemen 
will have its problems. Iran will still be pursuing a nuclear 
weapon. All the problems of the Muslim and Arab world will 
exist.
    However, there is a converse to this. We, and Israel, and 
our Arab allies will not be able to collaborate and coordinate 
in the way in which we could in a positive way, unless the 
Israeli-Palestinian conflict is in fact established.
    We should have our Embassy in Jerusalem. We should. But you 
know what? It should get there when we have a resolution of the 
Israeli-Palestinian conflict so that not only our Embassy goes 
there but that 100-plus more go there and that we lead an 
extraordinary effort.
    My point is this: We can cherry pick out certain aspects to 
support our closest ally, Israel, but I would respectfully 
suggest that the best way to support Israel is to build the 
dynamic in which they can in fact engage in the way a normal 
nation engages with its neighbors. We are ready for that. We 
are ripe for that. And so what we need to do is be sensitive to 
the interests of, for instance, the King of Jordan who was here 
this week, who I think in private told President Trump the 
problems he would have if we moved our Embassy to Jerusalem. 
Now we can weigh that. We can say it is not important enough 
but the King of Jordan is a huge ally to us. Why make his life 
difficult in a way that doesn't achieve the type of result that 
ultimately we and Israel are looking for, which is a negotiated 
two-state outcome?
    Mr. Deutch. Thank you, Mr. Wexler. I am sorry, I need to go 
but I will yield the balance of my time to Mr. Connolly.
    Mr. Smith. The gentleman from Virginia--thank you--Mr. 
Connolly is recognized.
    Mr. Connolly. Thank you. Thank you so much, Mr. Chairman. 
Thank you, Mr. Deutch.
    When I was here a little earlier, Mr. Neuer, forgive me I 
had to go back and forth to hearings, I thought I heard you 
refer to 5 million so-called refugees. Were you questioning the 
refugee status of individuals in the region?
    Mr. Neuer. Yes, it was in reference to the so-called 
Palestinian refugees.
    Mr. Connolly. So-called?
    Mr. Neuer. Yes, I work across the street from the UNHCR, 
the U.N. High Commission for Refugees, the UNHCR. They have 
definitions for refugees. It does not continue for generations. 
And only UNRWA gives that status.
    Mr. Connolly. Right. So I just wanted to make sure I 
understood you. Got it.
    Mr. Wexler, are they so-called refugees?
    Mr. Wexler. No, they are refugees but it is true that only 
in the case of Palestinian refugees are second, third, and 
fourth generation members considered refugees. In other refugee 
situations, the refugee status stops at the actual refugee 
itself. And this is a complicated question with many factors, 
not the least of which are how are those refugees, however you 
define them, treated in the Arab countries? Pretty poorly for 
the most part, except for Jordan. They don't get citizenship. 
They don't have the ability to entertain their lives in an 
economically feasible way. So what we have talked about in part 
today are some measures in which the United Nations can 
encourage the refugees that are in the West Bank to begin to be 
handled by the Palestinian Authority so as to change the 
stubborn ideology, which is a thorn in the side of a negotiated 
two-state outcome. But it is only one of several issues.
    Mr. Connolly. I hate to put you on the spot, Mr. Wexler, 
but I am going to, since you were a Member of this body. The 
U.S. Ambassador to Israel Designate, Mr. Friedman, has referred 
to critics of Israel, Jewish critics of Israel and 
organizations like J Street as kapos or worse than kapos. What 
is your comment about that kind of statement?
    Mr. Wexler. Any reference by anyone in that regard would be 
terribly unfortunate. With respect to the position of the 
American Ambassador to Israel, and particularly in the case of 
the Designee, who is a Jewish American, he has an opportunity 
to unite the Jewish American community and the whole pro-Israel 
American community, which is very large, thank goodness. Very 
large. Here is an opportunity to put us all in the same tent 
and I would beg him, beg him to consider using language and 
actions that allow more people to root for him, as oppose to 
wonder the type of things that you are legitimately wondering 
now.
    Mr. Connolly. He is also not a fan, and that is being 
charitable, of a two-state solution and has aligned himself 
with the settler movement and with specific settlements in 
Israel well beyond the environs of Jerusalem. Is the two-state 
solution dead, given the fact that we have a Prime Minister who 
off and on has said various things about a two-state solution 
and now we have a U.S. Ambassador Designate who is no fan of 
the two-state solution? Is it a fiction that we are pursuing 
and what does that mean if we are going to give up on a two-
state solution?
    Mr. Wexler. I hope it is not dead but anybody with any 
sense about them understands the dire scenario that we are in. 
We are in a scenario where, for a whole host of reasons, both 
on the Palestinian side and the Israeli side, the realization 
of a negotiated two-state outcome is further way today than 
ever before.
    The consequences are dire. For those of us who are 
Zionists, for those of us who believe in a Jewish democratic 
State of Israel, the creation of a demilitarized Palestinian 
State is not a gift to the Palestinians. It is a life preserver 
for a Jewish democratic State of Israel that is secure. So that 
is why I am so passionate about the creation of a demilitarized 
Palestinian State within the context of a negotiated two-state 
outcome. Because if we don't have it, over time, Israel will 
become likely a binational state. And when it becomes a 
binational state, it will either lose its Jewish majority or 
its democratic nature.
    I want the State of Israel to be able to go forward and 
continue its miraculous growth from a position of strength. And 
obviously, it doesn't matter what I want. The Israeli people, 
hopefully, will choose that direction. They need a partner.
    And for those Americans, at this point, that are ascending 
to important positions, I think that the notion that they would 
somehow discount a negotiated two-state outcome is very, very 
dangerous to the Zionist dream. And I hope, as they learn more 
and more, they will moderate their tone and work toward a 
negotiated two-state outcome because to do otherwise will doom 
the Zionist enterprise.
    Mr. Connolly. I completely share your point of view. As 
somebody who is strong supporter of Israel, I worry about the 
future. I think we need vigorous debate about the future and I 
don't think any purpose is served by calling people kapos who 
dare to criticize the current Government of the State of 
Israel.
    With that, I yield back.
    Mr. Smith. Thank you very much, Mr. Connolly.
    Mr. Hook, I think you wanted to make a comment.
    Mr. Hook. Congressman Connolly brought up the definition of 
refugee.
    Mr. Connolly. I am so sorry. I didn't mean to cut you off. 
Thank you, Chris.
    Mr. Hook. I think part of the confusion is that when UNRWA 
was set up in 1949 it created a definition of refugee, which 
was a person whose normal place of residence between '46 and 
'48 and who lost his home and his livelihood as a result of the 
conflict, that was the definition.
    UNRWA later expanded and redefined the definition of 
refugee to include descendants. And so most of the people on 
the original definition, many of them are deceased but then 
they changed the definition of refugee. And that is why we have 
got this confusion.
    Mr. Connolly. Yes and I wasn't putting anybody--I was 
simply--I heard it and then I had to run. And I wanted to make 
sure I heard it correctly and what you meant. And I think you 
clarified that.
    Mr. Neuer. And if I could clarify that it is not my 
position that these individuals don't need help and that the 
U.S. and other countries should not provide the aid. The 
question is how.
    The problem with UNRWA is not only our 130-page report 
about incitement to terrorism and anti-Semitism. The problem 
with UNRWA is a core problem with its underlying message.
    The question is how are 2 million Palestinian refugees in 
Gaza and West Bank, how are they refugees if they come from 
mandatory Palestine? If they are in Gaza on the West Bank 
today, where are they refugees from? They are in mandatory 
Palestine. They are in what the U.N. calls the State of 
Palestine. Where are they refugees from? It relates to what Mr. 
Wexler had said, the PA could address them. We could give the 
funds to the PA and let them be handled.
    The problem is that UNRWA's narrative is that their home is 
not in Gaza, their home is in Israel and so we should not be 
surprised that when we give cement, when the international 
community gives cement to Palestinians in Gaza, rather than use 
it to build homes, hospitals, and schools, they have been 
taught by UNRWA that their home is in Israel. So we shouldn't 
be surprised that they take that cement and build terror 
tunnels to attack Israel.
    Mr. Connolly. And I take your point, Mr. Neuer but I would 
go back to what Mr. Wexler said. Not that you did, but 
abandoning a two-state solution I guarantee you will not make 
that better. If we have any hope at all of ultimately dealing 
with status of those folks who are called refugees by UNRWA, I 
think you have got to continue to put some capital into the 
two-state solution or risk perpetual conflict and personal 
animus that will just never go away.
    Mr. Neuer. I take your point and I think on the issue of 
settlements, for example, we have said and Resolution 2334 says 
that settlements are an obstacle to peace. The fact is that 
Israel, as it did this week and as it has done numerous times 
with the Camp David Accords and then with the disengagement 
from Gaza, Israel has uprooted thousands of its own citizens 
from their homes and uprooted and dismantled settlements. What 
no one talks about, Dr. Einat Wilf is writing a book on UNRWA, 
one of the world's experts, says that dismantling settlements 
has happened, Israel has done it. How do you dismantle an idea; 
the idea that Israel has no right to exist, the idea in every 
UNRWA school that Israel is erased from the map? In our report, 
there are pictures of UNRWA schools in Syria and all over where 
Israel is erased from the map. To uproot an idea that Israel 
has no right to exist is much harder and that idea is the 
obstacle to peace.
    Mr. Connolly. I couldn't agree with you more. I think that 
is a terrible dilemma and has to be overcome. And sooner or 
later, the Palestinian community has to come to grips with the 
existence of Israel as a number of Israel's neighbors have.
    But aggressive expansion of settlements way beyond the 
environments of suburban Jerusalem is not only a provocative 
act, it is, potentially, a destabilizing act. And to Mr. 
Wexler's point, it could backfire. It could actually damage 
Israel's stability on its borders and destabilize nations that 
have recognized Israel's right to exist, such as Jordan. And 
that is in no one's interest.
    I am sorry, Mr. Smith. One final thing. Mr. Wexler, wanted 
to comment on that and then I am done. I thank you.
    Mr. Wexler. With respect to settlements, Mr. Neuer is 
factually correct. Israel has, in fact, removed settlements at 
least two points in history. Prime Minister Sharon from Gaza, 
which was 8,000 or 9,000 Israelis and the Israelis, as a 
condition of the Israeli-Egyptian Peace Treaty, removed Jewish 
settlements from the Sinai, effectively. Those were relatively 
small numbers of people.
    We now have, if you add up East Jerusalem and the West 
Bank, close to 600,000 Jewish residents. Now, I think the 
most----
    Mr. Connolly. Excuse me but like when President Bill 
Clinton was in office in 1993, I believe the number was a 
little over 100,000.
    Mr. Wexler. I think it was more than that but growth has 
been substantial. And in fairness, let's not just pin it on 
Prime Minister Netanyahu. The growth was substantial in Labor 
Governments. The growth has been substantial in all Israeli-led 
governments.
    The key is is that we begin to distinguish between 
settlements. It is true, settlements are not a block to a 
negotiated two-state outcome. Those settlements that are 
adjacent to the '67 lines are certainly not a block. They can 
be incorporated into Israel with land swaps rather easily. But 
settlements that are way out in fact do impair the realization 
of a negotiated two-state outcome. If it is only 6,000 people 
or 8,000 people, you can deal with it but when it gets into 
50,000, 60,000, it becomes a logistical nightmare and a 
political nightmare for any Israeli Government.
    Mr. Connolly. Thank you, Chris.
    Mr. Smith. Mr. Connolly.
    Before we close, I would like to offer an opportunity if 
there was a question that went unasked or some concluding you 
might want to make. If not, that is fine.
    But Mr. Wexler, you made a very good point about 
demilitarized and I think that word needs to be underscored. 
That is the biggest worry.
    I remember being on the White House lawn, and I am sure you 
were and so many of my colleagues were, when Rabin, Arafat, and 
President Clinton looked like it was truly an historic accord, 
the Oslo Accord. But I remember riding back from that very 
important ceremony thinking but what about the terrorism and 
people with AK-47s and then some.
    And we know that Hamas has only gotten more dominant, 
rather than less. So that remains, obviously, a deep, deep 
concern. And I get your point. It was very well-spoken and 
articulated as to why you think that is the way to go but it 
has to be demilitarized.
    But anybody who would like to make some final comment 
before we close? Or we will just end.
    Yes, Mr. Neuer?
    Mr. Neuer. Just one comment. There was a question about 
some systemic reforms we could make and I think one of the most 
important ones would be transparency and supporting whistle 
blowers.
    We just had this week, another U.N. human rights official 
who said that she was punished for revealing that a senior 
supervisor in her officer gave China information about Cao 
Shunli, the dissident who was about to come to Geneva and who, 
as you know, was detained and died in prison. And it seems that 
a senior U.N. human rights official gave the information to 
China and was doing that on a regular basis.
    So the whistle blowers need to be protected and the 
Congress is playing an important role on that.
    I think the new U.N. Ambassador should try to create a 
system, a Freedom of Information. It is almost impossible to 
get basic information, things like who are the staffers who 
wrote the Goldstone Report. By accident, we found out that one 
of the key authors was a woman named Dr. Grietje Baars, who is 
a Marxist radical professor in London, who was spokeswoman for 
the European flotilla, Gaza flotilla movement. She was actually 
one of these so-called impartial civil servants who were 
writing the Goldstone Report.
    All of that information is hidden by the U.N. We need to 
create a system where that kind of information gets disclosed 
as it would be in any other government.
    Thank you, Chairman Smith.
    Mr. Smith. Thank you, Mr. Neuer.
    Mr. Wexler.
    Mr. Wexler. I just want to thank you and Chairperson 
Lehtinen and the ranking members for an especially thoughtful 
and well-run hearing. Thank you very much.
    Mr. Smith. Doctor?
    Mr. Schanzer. I also want to thank you for this hearing. I 
think it has been terrific.
    You know we have obviously been focusing today on the 
U.N.'s treatment of Israel and the corruption within and 
perhaps prospects for peace. But I think I should also point 
out here that the U.N. has other jobs to do. For example, the 
recent missile test by Iran, we are deeply concerned about 
that. We hope that the U.N. will address this. I know the 
administration just recently raised this in an emergency 
session. It is going to be crucial, I think, for Congress and 
the administration to ensure that the U.N. and the P5+1 holds 
Iran to account when we talk about Israel's security, when we 
talk about the security of the United States, global security. 
Iran has got to be job one.
    Thank you.
    Mr. Smith. Thank you. I would like to, again, thank you for 
your incisive commentary and testimony.
    The two subcommittees, we will be holding a hearing soon on 
UNRWA and I think that will, hopefully, provide some good 
insights as to policy and next steps.
    And again, I want to thank you so much for your excellent 
testimonies.
    The hearing is adjourned.
    [Whereupon, at 12:44 p.m., the subcommittees were 
adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         Material Submitted for the Record
         
       [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
  
         
         
         
         

   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]



   Material submitted for the record by the Honorable Christopher H. 
 Smith, a Representative in Congress from the State of New Jersey, and 
 chairman, Subcommittee on Africa, Global Health, Global Human Rights, 
                    and International Organizations


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


   Material submitted for the record by Mr. Hillel Neuer, executive 
                           director, UN Watch


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Note: This report is not reprinted here in full but may be found in its 
entirety at: http://docs.house.gov/Committee/Calendar/
ByEvent.aspx?EventID=105508

 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

[Note: Responses to the above questions were not received prior to 
printing.]

                                 [all]
</pre></body></html>
